<html>
<title> - RACIALLY AND ETHNICALLY MOTIVATED VIOLENT EXTREMISM: THE TRANSNATIONAL THREAT</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                RACIALLY AND ETHNICALLY MOTIVATED VIOLENT 
                  EXTREMISM: THE TRANSNATIONAL THREAT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            INTELLIGENCE AND
                            COUNTERTERRORISM

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2021

                               __________

                           Serial No. 117-10

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________


                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-824 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------





                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                     Natalie Nixon, Committee Clerk
                                 ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                  Elissa Slotkin, Michigan, Chairwoman
Sheila Jackson Lee, Texas            August Pfluger, Texas, Ranking 
James R. Langevin, Rhode Island          Member
Eric Swalwell, California            Michael Guest, Mississippi
Josh Gottheimer, New Jersey          Jefferson Van Drew, New Jersey
Tom Malinowski, New Jersey           Jake LaTurner, Kansas
Bennie G. Thompson, Mississippi (ex  Peter Meijer, Michigan
    officio)                         John Katko, New York (ex officio)
               Brittany Carr, Subcommittee Staff Director
          Adrienne Spero, Minority Subcommittee Staff Director
                      Joy Zieh, Subcommittee Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Elissa Slotkin, a Representative in Congress From 
  the State of Michigan, and Chairwoman, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable August Pfluger, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     8
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     9

                               Witnesses

Mr. John T. Godfrey, Acting Coordinator for Counterterrorism and 
  Acting Special Envoy for the Global Coalition to Defeat ISIS, 
  United States Department of State:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. John Cohen, Counterterrorism Coordinator and Assistant 
  Secretary for Counterterrorism and Threat Prevention, United 
  States Department of Homeland Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20

                             For the Record


The Honorable Elissa Slotkin, a Representative in Congress From 
  the State of Michigan, and Chairwoman, Subcommittee on 
  Intelligence and Counterterrorism:
  Letter From Chairwoman Slotkin to Secretary Antony J. Blinken..    45
  Letter From Naz Durakoglu to Chairwoman Slotkin................    46

 
RACIALLY AND ETHNICALLY MOTIVATED VIOLENT EXTREMISM: THE TRANSNATIONAL 
                                 THREAT

                              ----------                              


                        Thursday, April 29, 2021

             U.S. House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Intelligence 
                                      and Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:31 a.m., 
via Webex, Hon. Elissa Slotkin [Chairwoman of the subcommittee] 
presiding.
    Present: Representatives Slotkin, Jackson Lee, Langevin, 
Gottheimer, Malinowski, Pfluger, Guest, Van Drew, and Meijer.
    Ms. Slotkin. The Subcommittee on Intelligence and 
Counterterrorism will come to order. Without objection, the 
Chair is authorized to declare the subcommittee in recess at 
any point.
    Good morning, everyone. I want to thank our witnesses from 
the Department of Homeland Security and the Department of State 
for being here today to discuss a complex and pressing topic 
that deals directly with our safety here at home.
    As the President said just last night, we won't ignore what 
our intelligence agencies have determined to be the most lethal 
terrorist threat to our homeland today, White supremacy. With 
that in mind, our subcommittee is meeting today to explore the 
threats posed by transnational, racially and ethnically 
motivated violent extremists, or RMVEs. That is an acronym, 
because the Government just loves our acronyms.
    Our focus today is on the connections between individuals 
and groups here in the United States who use violence to 
further their racially or ethnically driven political goals, 
and the growing number of foreign groups who share their aims, 
ideologies, and violent designs.
    While the information our intelligence community has on 
some of these foreign groups is admittedly less than we would 
like, the intelligence community has assessed that domestic 
racially and ethnically motivated violent extremist groups, 
which advocate for the superiority of the White race, have, 
``the most persistent and concerning transnational 
connections'' of all U.S. domestic violent extremists.
    Through these connections, they spread propaganda, train, 
and attempt to collaborate in carrying out violent acts. Given 
their relative ease of travel and communication, labeling these 
groups, their leaders, and their supporters as what they are is 
one of--is all the more important to curb the threat at home 
and abroad.
    That said, it remains true that foreign groups with 
transnational ties span a broad range of ideologies, including 
everyone from White supremacists to radical Islamic terrorists. 
This isn't a new or unfamiliar threat. It is one we have been 
confronted with in various forms for decades. But over the past 
few years, the United States and countries around the world 
have seen a surge in violence and terrorism, perpetrated by 
these kinds of organizations. This isn't just an American 
threat, it is a global one.
    Many of these foreign groups are downright eager to use 
deadly violence to advance their goals. They are often heavily-
armed, such as the Nordic Resistance Movement. They are trained 
in firearms and communications security tactics. They are often 
coordinated, and they are increasingly global.
    Another example: The Russian Imperial Movement's leadership 
was finally named as Specially Designated Global Terrorists 
last year, by Secretary Pompeo, after recruiting and training 
followers for urban assaults, like the one its trainees carried 
out in Gothenburg, Sweden. Combat 18, which started in the 
United Kingdom, has similarly organized around neo-Nazi 
principles, and as recently as 2019, was linked to the 
assassination of a German politician.
    In recent years, we have seen individual Americans reaching 
out to foreign groups, and connecting over common ideology, 
tactics, and training. A handful of Americans have even sought 
to travel overseas to take up arms and fight alongside these 
groups. We saw it, for instance, in September 2019 when a U.S. 
Army soldier at Fort Riley--who was planning to travel to 
Ukraine to fight with the Azov Battalion, a paramilitary 
militia--was arrested for distributing bomb-making 
instructions.
    We have seen this for 20 years as individual Americans get 
radicalized on-line, seek out groups, like al-Qaeda in Yemen, 
and share tactics, ideology, and, in some cases, carry out 
deadly attacks on the United States. Just as we in the 
Government have spent significant effort to root out all these 
individual Americans, so, too, should we care about American 
White supremacists sharing tactics and training across National 
lines.
    To that end, given the threat of violence from White 
supremacist extremists, we need to look to their links to 
foreign organizations, especially as the barriers to 
communicate, plan, recruit, and train internationally with our 
ideological sympathizers has nearly disappeared.
    My colleagues here this morning were also with me on 
January 6 as we experienced a first-hand manifestation of the 
threat we are going to talk about today. We all saw the havoc 
domestic terrorists and other rioters caused as they tried to 
upend our democratic process, and we mourn the loss of life 
that resulted.
    As the dust settles from the attack, and hundreds of the 
insurrectionists have been charged with an assortment of 
crimes, we are beginning to see the connections between some of 
the more organized groups connected to that attack, and 
sympathetic groups that have taken root in parts of Europe, 
Australia, and elsewhere.
    For example, the Proud Boys, which has had a number of its 
members indicted on conspiracy charges around January 6, has 
spawned local chapters, not just in the United States, but in 
Britain, Norway, and Australia. Canada is so concerned about 
the Proud Boys that they have made the decision to list them as 
a foreign terrorist organization, along with The Base and the 
Atomwaffen Division. This is something we will need to discuss 
here today.
    I spent a significant amount of time examining the 
connections between terrorists and their networks in the Middle 
East in my prior life, before running for Congress, and I have 
been surprised by the vast amount of publicly-available 
information that demonstrates the international connections of 
some of these U.S.-based extremist groups, especially ones 
promoting a White supremacist ideology.
    We can see for ourselves that these domestic groups are 
generating, and, in many cases, exporting a unique brand of 
terrorism. They are learning lessons from plots, propaganda, 
and attacks that are similarly driven by hate and violence 
abroad.
    The State Department's move last year to designate the 
Russian Imperial Movement as one of these SDGTs, or 
specifically designated global terrorists, was an unprecedented 
and important first step to begin addressing the threat, but it 
didn't go nearly far enough, and the time and the time is now 
to take further action.
    Earlier this month, I sent a letter to Secretary of State 
Tony Blinken, asking him to use publicly available evidence, 
along with intelligence our Government has, to determine 
whether certain foreign White supremacist groups should be 
labeled as foreign terrorist organizations under the Department 
of State's formal processing criteria. If they couldn't go as 
far as listing them as an FTO, I asked that they consider 
labeling them an SDGT, a specially designated global terrorist 
group.
    If designated as an FTO, the United States can limit a 
foreign group's financial property and travel interests. An 
SDGT designation allows for the blocking of the group's assets 
as well as those associated individuals, or subgroups, but this 
designation does not restrict travel to the United States, 
though it flags those individuals in numerous watch lists.
    In the Department's response to me, which we just received 
last week, which I deeply appreciate, the State Department 
emphasized that a lack of updated credible information and 
intelligence about these foreign groups is one of the 
``important limitations'' they face when considering groups for 
designation.
    This is an issue I will be raising directly with the 
intelligence community this week. I had hoped to raise these 
issues with leadership from the Office of the Director of 
National Intelligence today. Unfortunately, they were unable to 
participate in this hearing.
    Nonetheless, I am eager to hear from our witnesses about 
the level and quality of intelligence we have collected on 
these organizations thus far, and how we can ensure that the 
State Department has the information and tools it needs to make 
these designations if they are deemed to meet the appropriate 
criteria.
    The challenge of domestic violent extremism is one that we 
need to confront and take on here at home within our 
communities, and with careful respect for our domestic laws, 
civil rights, and civil liberties. But any solution will 
require an understanding of these transnational ties and 
trends, as well as coordination with our allies.
    Additionally, we need to see a much more robust, 
coordinated effort between Government and private-sector 
companies to take on this challenge, particularly the companies 
that operate social media platforms, which we know are abused 
to spread racially and ethnically motivated extremist ideology 
world-wide.
    For our Government, this issue sits as a crossroads of 2 
agencies uniquely charged with keeping us safe at home, and 
encouraging peace, liberty, and prosperity abroad. Their 
different vantage points will shed light on this topic, and 
help us understand how Congress can effectively confront 
violent extremist threats that are rapidly taking root in 
communities large and small across the country.
    I look forward to hearing how your agencies are engaged in 
this fight, and how we, as Members of Congress, can help.
    [The statement of Chairwoman Slotkin follows:]
                 Statement of Chairwoman Elissa Slotkin
                             April 29, 2021
    I want to thank our witnesses from the Department of Homeland 
Security and the Department of State for being here today to discuss a 
complex and pressing topic that deals directly with our safety here at 
home. As the President said last night: ``We won't ignore what our 
intelligence agencies have determined to be the most lethal terrorist 
threat to the homeland today: White supremacy is terrorism.''
    With that in mind, our subcommittee is meeting today to explore the 
threats posed by transnational racially and ethnically motivated 
violent extremists, or RMVEs.
    Our focus today is on the connections between individuals and 
groups here in the United States, who use violence to further their 
racially or ethnically driven political goals; and the growing number 
of foreign groups who share their aims, ideologies, and violent 
designs. While the information our intelligence community has on some 
of these foreign groups is admittedly less than we'd like, the IC has 
assessed that domestic racially and ethnically motivated violent 
extremist groups which advocate for the superiority of the White race 
have ``the most persistent and concerning transnational connections'' 
of all U.S. domestic violent extremists.
    Through these connections, they spread propaganda, train, and 
attempt to collaborate in carrying out violent acts. Given their 
relative ease of travel and communication, labeling these groups, their 
leaders, and their supporters as what they are is all the more 
important to curb this threat at home and abroad.
    That said, it remains true that foreign groups with transnational 
ties span a broad range of ideologies, including everyone from White 
supremacists and radical Islamic terrorists. This isn't a new or 
unfamiliar threat: It's one we've confronted in various forms, for 
decades. But over the past few years, the United States and countries 
around the world have seen a surge in violence and terrorism 
perpetrated by these kinds of organizations. This isn't just an 
American threat, it's a global one.
    Many of these foreign groups are downright eager to use deadly 
violence to advance their goals. They are often heavily-armed, such as 
the Nordic Resistance Movement. They are trained in firearms and 
communications security tactics. They are often coordinated. And they 
are increasingly global.
    Another example: The Russian Imperial Movement's leadership was 
finally named as specially designated global terrorists last year, by 
Secretary Pompeo, after recruiting and training followers for urban 
assaults--like the one its trainees carried out in Gothenburg, Sweden. 
Combat 18, which started in the United Kingdom, has similarly organized 
around neo-Nazi principles, and as recently as 2019 was linked to the 
assassination of a German politician.
    In recent years, we've seen individual Americans reaching out to 
foreign groups, and connecting over common ideology, tactics, and 
training. A handful of Americans have even sought to travel overseas to 
take up arms and fight alongside these groups. We saw it, for instance, 
in September 2019, when a U.S. Army soldier at Fort Riley--who was 
planning to travel to Ukraine to fight with the Azov Battalion, a 
paramilitary militia--was arrested for distributing bomb-making 
instructions. We have seen this for 20 years, as individual Americans 
get radicalized on-line, seek out groups like al-Qaeda in Yemen, and 
share tactics, ideology, and--in some cases--carry out deadly attacks 
in the United States. Just as we in the Government have spent 
significant effort to root out all these individual Americans, so too 
should we care about American White supremacists sharing tactics and 
training across National lines.
    To that end, given the threats of violence from White supremacist 
extremists, we need to look at their links to foreign organizations--
especially as the barriers to communicate, plan, recruit, and train 
internationally with their ideological sympathizers and partners have 
nearly disappeared.
    My colleagues here this morning were also with me on January 6, as 
we experienced a firsthand manifestation of the threat we are going to 
talk about today. We all saw the havoc domestic terrorists and other 
rioters caused as they tried to upend our democratic process, and we 
mourn the loss of life that resulted. As the dust settles from that 
attack--and hundreds of the insurrectionists have been charged with an 
assortment of crimes--we are beginning to see connections between some 
of the more organized groups connected to that attack, and sympathetic 
groups that have taken root in parts of Europe, Australia, and 
elsewhere. For example, The Proud Boys, which has had a number of its 
members indicted on conspiracy charges around January 6, has spawned 
local chapters not just across the United States but also in Britain, 
Norway, and Australia. Canada is so concerned that they have made the 
decision to list the Proud Boys, as well as The Base and the Atomwaffen 
Division, as foreign terrorist organizations. That is something we will 
need to discuss here today.
    I spent a significant amount of my career examining the connections 
between terrorists and their networks in the Middle East, and I've been 
surprised by the vast amount of publicly available information that 
demonstrates the international connections of some of these U.S.-based 
violent extremist groups, especially ones promoting a White supremacist 
ideology. We can see for ourselves that these domestic groups are 
generating--and, in many cases, are exporting--a unique brand of 
terrorism. And, they're learning lessons from plots, propaganda, and 
attacks that are similarly driven by hate and violence abroad.
    The State Department's move last year to designate the Russian 
Imperial Movement as a Specially-Designated Global Terrorist (or SDGT) 
group was an unprecedented and important first step in beginning to 
address this threat, but it didn't go nearly far enough, and the time 
to take further action is now.
    Earlier this month, I sent a letter to Secretary of State Blinken 
asking him to use publicly-available evidence, along with intelligence 
our government has, to determine whether certain foreign White 
supremacist groups should be labeled as Foreign Terrorist 
Organizations, under the Department of State's formal process and 
criteria. If they couldn't be labeled an FTO, I asked that they be 
labeled an SDGT. If designated as an FTO, the United States can limit a 
foreign group's financial, property, and travel interests. An SDGT 
designation allows for the blocking of the group's assets, as well as 
those of associated individuals or subgroups--but this designation does 
not restrict travel to the United States, though it likely flags those 
individuals in our numerous watch lists.
    In the Department's response to me, which we received last week, 
the State Department emphasized that a lack of updated, credible 
information and intelligence about these foreign groups is one of the 
``important limitations'' they face when considering groups for 
designation. This is an issue I'll be raising directly with the 
intelligence community this week. I had hoped to raise this issue with 
leadership from the Office of the Director of National Intelligence 
today, but unfortunately they were unable to participate in this 
hearing. Nonetheless, I'm eager to hear from our witnesses about the 
level and quality of the intelligence we've collected on these 
organizations thus far and how we can ensure the State Department has 
the information and tools it needs to make these designations, if 
they're deemed to meet the appropriate criteria.
    The challenge of domestic violent extremism is one that we need to 
confront and take on here at home, within our communities, and with 
careful respect for our domestic laws, civil rights, and civil 
liberties. But any solution will require an understanding of these 
transnational ties and trends, as well as coordination with our allies. 
Additionally, we need to see a much more robust, coordinated effort 
between Government and private-sector companies to take on this 
challenge--particularly companies that operate social media platforms, 
which we know are abused to spread racially and ethnically motivated 
extremist ideology, world-wide.
    For our Government, this issue sits at the crossroads of two 
agencies, uniquely charged with keeping us safe at home, and 
encouraging peace, liberty, and prosperity abroad. Their different 
vantage points will shed important light on this topic, and help us 
understand how Congress can effectively confront the violent extremist 
threats that are rapidly taking root in communities large and small 
across the country, and across the world.
    I look forward to hearing how your agencies are engaged in this 
fight and how we, as Members of Congress, can help.

    Ms. Slotkin. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Pfluger, for an 
opening statement.
    Mr. Pfluger. Thank you, Madam Chair. Thanks for holding 
this hearing.
    I appreciate the opportunity to talk to our incredible 
witnesses as well, Mr. Cohen, the coordinator for 
counterterrorism, and assistant secretary for counterterrorism 
and threat prevention, and Mr. John Godfrey. I appreciated the 
opportunity to speak with them before-hand and have some good 
conversations, and I think their credibility, their 
professional career will add much to this discussion, and 
really, you know, bring out the facts on what threat we are 
facing and how we as a country can better deal with that.
    As I said in our first official hearing on this 
subcommittee, it is incumbent upon all of us to ensure that we 
are doing everything we can to search those facts, to 
understand the threat landscape, to be a threat-based committee 
that is not a partisan issue. This is a non-partisan piece of 
work for us to protect our homeland, and that is really the 
most important thing.
    Whether it is domestic violent extremists or foreign 
organizations, we need to search that out for intelligence. The 
intelligence piece of this committee is extremely important for 
us to understand the facts, to come up with a game plan, and to 
adequately equip the organizations that sit within our 
jurisdiction so that they can do their job to continue to 
protect us. So, I am glad to find that we are continuing to 
search out key areas of bipartisanship where we can do so.
    Racially and ethnically motivated violent extremism, along 
with anti-Government, or anti-authority violent extremism, and 
every category of domestic terrorism, cannot be tolerated, not 
by our law enforcement, not by our prosecutors, not by us in 
Congress, and not by the American public. Those who commit 
crimes in furtherance of extremist agendas, no matter what 
their ideology is, must be held accountable to the fullest 
extent of the law, and that is why we are here today to talk 
about that.
    I think it is important for all of us on this subcommittee, 
and for Congress as a whole, to also recognize that our foreign 
adversaries who are out there every single day, as our National 
Security Strategy has stated, whether it is China, Russia, 
Iran, North Korea, they are continually attempting, and 
succeeding in some points, at dividing the American public 
through amplification of extremist messaging, through on-line 
platforms, if foreign governments are attempting to influence 
the American people through social media.
    Whether it is to impact an election or breed hate amongst 
our citizens, I believe it is a problem. It is a problem that 
is not new, but what is new at this point in time is the 
rapidity and the speed in which these organizations can reach 
every-day citizens in our country because of those social media 
platforms. I hope that we can get into that today to look at 
that.
    But on the other side of the problem, we do, as the Chair 
said--and, Madam Chair, thank you very much for mentioning the 
fact that the balance intention here is really to make sure 
that the protected rights, the First Amendment rights, remain 
protected.
    I think it is also incumbent for us to look at the fact 
that, you know, we as a country, I think we can look at this as 
the sky is falling, or we can also look at it as these are 
mostly lone-wolf actions, and these lone-wolf actions are very 
difficult to identify and to predict, and then, to do something 
about, and that is why we are here today is to talk about those 
ways of doing it.
    But, as an American society, as a culture, and for somebody 
who has spent my career fighting against all sorts of the 
threats around the globe, you know, I think we should look at 
our system of justice and the law enforcement agents and those 
who are studying this on a daily basis and say, you know, there 
is a bright side to this, that the organization, and from my 
conversations with our witnesses today, it seems to be a lone-
wolf type of a threat instead of a very organized threat that 
we see in some of the foreign terrorist organizations, like al-
Qaeda, like ISIS, and others that have organized to the point 
where they are affecting society as a whole. So, let's dig into 
that, and let's not be afraid to look at those facts.
    It is on points like these that I look forward to working 
with Chair Slotkin, and other Members of the subcommittee, to 
address the variety of challenges that we are facing. The 
threat landscape today is vast. It is far and wide, whether we 
are dealing with cyber attacks from China, ISIS; whether it is 
in Syria or terrorism, domestic terrorism here on American 
soil, there is a lot of work to be done.
    We need to look forward to working with the Executive 
branch agencies, the partners there that are combating the 
threat of terrorism, both internationally and domestically, day 
in and day out, and we thank them for that. So, I absolutely 
look forward to the contents of this hearing.
    I think that it is also important to admit and to look 
today at what is happening along our border, and it is--as an 
Intelligence and Counterterrorism Subcommittee, we really need 
to look at the intelligence that we are putting, and the 
emphasis that we are putting on the surge at our Southern 
Border. Let's not be, you know, distracted by one word or 
another.
    But if we have folks that are on terror lists that are 
getting into this country, then the threat of domestic 
terrorism will continue to rise in this country, because once 
they get into this country, they are now domestic. So, let's 
talk about that.
    While the contents of this hearing are going to be focused 
on a different subject, I do look forward, Madam Chair, to 
putting that forth to our agencies and those under our 
jurisdiction to really understand whether it is on the Northern 
Border in the racially-motivated extremist groups that do 
threaten us, or whether it is on the Southern Border in groups 
that we may not know having access to our country. It is a 
threat to our homeland.
    So, I thank our witnesses. I thank, Madam Chair, your 
leadership to get to the bottom of this, to have a fact-based 
conversation, and to truly dig in and protect the American 
people, according to our oath sworn to the Constitution. So 
with that, I yield back. Thank you for your time.
    [The statement of Ranking Member Pfluger follows:]
                 Statement of Honorable August Pfluger
    Thank you, Madam Chair. I appreciate you holding this hearing today 
and thank you to our witnesses: John Cohen, coordinator for 
counterterrorism and assistant secretary for counterterrorism and 
threat prevention, and John Godfrey, acting coordinator for 
counterterrorism and acting special envoy for the Global Coalition to 
Defeat ISIS.
    As I said in our first official hearing as a subcommittee, it is 
incumbent upon those of us on this subcommittee to ensure that we are 
doing everything we can to protect Americans from domestic violent 
extremists and I'm glad that we're continuing to find points of 
bipartisanship where we can do so.
    Racially and ethnically motivated violent extremism, along with 
anti-Government or anti-authority violent extremism, and every other 
category of domestic terrorism, cannot be tolerated: Not by our law 
enforcement and prosecutors; not by us in Congress; and not by the 
American public. Those who commit crimes in furtherance of extremist 
agendas, no matter their ideology, must be held accountable to the 
fullest extent of the law.
    I think it's important for all of us on the subcommittee, and for 
Congress as a whole, to also recognize that foreign adversaries like 
China, Russia, Iran, and North Korea, are continually attempting, and 
succeeding, at dividing the American people through amplifying 
extremist messaging through on-line platforms. Foreign governments 
attempting to influence the American people through social media, 
whether it's to impact an election or to breed hate amongst our 
citizens, I believe is a problem we all--on both sides of the aisle--
agree must to be dealt with.
    It's on points like these that I look forward to working with Chair 
Slotkin and the other Members of the subcommittee to address the 
variety of challenges which we are currently facing.
    The threat landscape today stretches far and wide--whether we are 
dealing with a cyber attack from China, ISIS in Syria, or terrorism 
here on American soil. There is a lot of work to be done. We look 
forward to working with our Executive branch partners to continue to 
combat the threat of terrorism both internationally and domestically. I 
look forward to hearing more about how we can support and further these 
efforts in relation to RMVE from an agency perspective.
    I thank our witnesses for their willingness to appear before the 
subcommittee, today, and I yield back the balance of my time.

    Ms. Slotkin. I thank the Ranking Member.
    Members are also reminded that the subcommittee will 
operate according to the guidelines laid out by the Chairman 
and Ranking Member of the full committee in their February 3 
colloquy regarding remote procedures. Member statements may be 
submitted for the record:
    [The statements of Chairman Thompson and Honorable Jackson 
Lee follow:]
                Statement of Chairman Bennie G. Thompson
                             April 29, 2021
    We are here today to talk about racially and ethnically motivated 
violent extremists or RMVEs.
    Last month, the director of national intelligence published a 
report on the heightened threat posed by domestic violent extremists. 
The report warned that U.S.-based RMVE actors ``who promote the 
superiority of the White race'' possess the most ``persistent and 
concerning transnational connections'' because they ``frequently 
communicate with and seek to influence each other.'' The Department of 
Homeland Security's Homeland Threat Assessment, or HTA, released in the 
fall also called attention to this concern.
    The HTA acknowledged that White supremacist extremists have 
conducted outreach abroad to spread their message, increasing the risk 
of mobilization to violence and travel to conflict zones. White 
supremacist RMVE actors are often inspired by the acts of like-minded 
individuals abroad. They exchange tactics and techniques for their 
violent plots, and they have even set up or inspired the creation of 
affiliate groups.
    It is time for our treatment of foreign RMVE threats to be 
consistent with how we treat other foreign terrorist threats. When we 
faced this same challenge in the context of al-Qaeda, the Islamic 
state, home-grown violent extremists, and other Sunni and Shia 
jihadists, the U.S. Government and private-sector partners rose to the 
occasion to combat the threat. Indeed, our legal and counterterrorism 
tools are different for domestic actors as opposed to international 
ones. However, the individuals, groups, and movements we are here to 
speak about today possess concrete links overseas.
    For instance, several of the individuals associated with the Rise 
Above Movement--a California-based White supremacist group--who were 
initially charged for violence during the deadly Charlottesville rally, 
appear to have traveled to Europe to meet with members of European 
White supremacist extremist groups. More recently, the FBI is 
reportedly probing whether foreign governments, groups, or individuals 
funded some January 6 Capitol rioters using Bitcoin.
    The January 6 attack will undoubtedly serve as a watershed moment 
for RMVE actors across the globe--and we cannot ignore how the event is 
affecting our allies and others abroad. And as COVID-19 protocols begin 
to loosen, we must be forward-thinking about how RMVE actors might 
again engage in travel and lead to a greater risk of violence. By not 
taking action or taking inconsistent action--whether by failing to 
prioritize the threat, educate the public on it, or using the tools we 
have at our disposal to counter it--we condone the actions of White 
supremacists at home and abroad.
    We must abandon our traditional passive approach to this issue and 
instead be creative in our solutions. And we can do these things while 
upholding the Constitution. This subcommittee held a similar joint 
hearing on this topic last Congress with non-Governmental subject-
matter experts. This time, it is great to have DHS and the State 
Department in front of us to talk about the issue--specifically how 
they are prioritizing it and what they are doing to combat it.
    Before I conclude, I would be remiss if I did not express my 
disappointment that the report required in Section 5602 of the fiscal 
year 2020 National Defense Authorization Act--which would provide 
policy makers and the public with extensive domestic and international 
terrorism data--is now more than 10 months past due. This data is 
crucial for Members of Congress to accurately understand the threat and 
effectively legislate on it. I would request that our DHS witness 
provide us with an update on the status of this report today.
    I look forward to having a productive conversation on this topic 
and working with both Departments on solutions.
                                 ______
                                 
               Statement of Honorable Sheila Jackson Lee
                             April 29, 2021
    Thank you, Chairwoman Slotkin and Ranking Member Pfluger for 
holding today's hearing on ``Racially and Ethnically Motivated Violent 
Extremism: The Transnational Threat.''
    It is a well-known fact that before you can begin to address any 
problem, you must first recognize the symptoms.
    There have been symptoms of racially and ethnically motivated 
violent extremism in the United States for too many years and deaths 
proving is presence in too many communities in this country.
    This hearing will provide Members of this committee with an 
opportunity to discuss:
  <bullet> the international and transnational racially or ethnically 
        motivated violent extremist (RMVE) threat landscape;
  <bullet> the spread of RMVE narratives and counternarratives; and
  <bullet> how the U.S. Departments of State and Homeland Security are 
        addressing the threats.
    I look forward to the testimony of today's witnesses:
  <bullet> Mr. John Cohen, assistant secretary for counterterrorism and 
        threat prevention, Department of Homeland Security (DHS),
  <bullet> Mr. John T. Godfrey, acting coordinator for counterterrorism 
        and acting special envoy for the global coalition to defeat 
        ISIS, Department of State.
    The escalation in violent domestic attacks over the last decade has 
made it clear that domestic terrorism is a problem.
    The rise in violence is linked to the presence of racially/
ethnically motivated violent extremists (RMVEs).
    Of all domestic terrorist actors, RMVEs who promote the superiority 
of the white race present the most persistent and concerning 
transnational connections.
    RMVEs who advocate for the superiority of the white race are not 
new but the proficiency with which these organizations operationally 
employ and share techniques, tactics, and procedures--especially over 
the last several years--is alarming and must be taken seriously.
    Although some elements of the U.S. Government have recently been 
more aggressive in tackling the threat from transnational and foreign 
RMVE threats, more must be done.
    In comparison with our allies, the U.S. Goverment is seemingly 
lagging in addressing the transnational threat from RMVE actors, 
especially when it comes to designating RMVE organizations and 
individuals with international ties as foreign terrorist organizations 
or specially designated global terrorists.
    The U.S. must work with our allies in a coordinated and cohesive 
fashion to counter the transnational threat from RMVE actors.
             recent terrorist attacks in the united states
    April 15, 2013--The Boston attacks were tragic killing 3 and 
injuring more than 260 men, women and children awaiting the arrival of 
runners in the Boston Marathon.
    On November 28, 2016, 11 individuals were injured in an incident at 
Ohio State University when Abdul Razaq Ali Artan drove a car into a 
crowd and also wounded individuals with a knife.
    On July 17, 2016, an offender shot and killed 6 police officers in 
Baton Rouge, LA. Three of the officers died and 3 were hospitalized.
    On July 7, 2016, an offender shot and killed 5 police officers and 
wounded 11 others (9 police officers and 2 civilians) in Dallas, TX. 
The offender was killed by police with a remotely guided robot loaded 
with an explosive.
    On June 12, 2016, an armed assailant shot and killed 49 people and 
non-fatally wounded over 50 others in an Orlando, FL Pulse Nightclub. 
After a 3-hour standoff with police, the assailant was killed by 
police.
    On December 2, 2015, 2 offenders killed 14 people and wounded 21 
others in San Bernardino, CA at a social services center. Both 
offenders were killed by police while resisting arrest.
    On November 27, 2015, at a Planned Parenthood clinic, in Colorado 
Springs, CO, a lone offender shot and killed 3 people and wounded 
another 9 people with a semiautomatic rifle before surrendering to the 
Police after a 5-hour standoff.
    On July 16, 2015, in Chattanooga, TN, a lone offender killed 5 
people and wounded another person at a military recruitment office and 
naval reserve center, before he was killed by police.
    On June 17, 2015, in Charleston, SC, a lone offender shot and 
killed 9 parishioners and wounded another parishioner with .45 caliber 
pistol at the historic Emanuel African Methodist Episcopal Church.
    October 1, 2017--Las Vegas Mass Shooting, killed 60 and wounded 
over 1,000 when a gunman opened fire on a crowd attending the Route 91 
Harvest music festival on the Las Vegas Strip in Nevada.
    March 22, 2018--Austin Serial Bombings occurred between March 2 and 
March 22, 2018, when 5 package bombs exploded, killing 2 people and 
injuring another 5. The suspect, 23-year-old Mark Anthony Conditt of 
Pflugerville, Texas, blew himself up inside his vehicle after he was 
pulled over by police on March 21, also injuring a police officer.
    August 3, 2019--El Paso Texas, a mass shooting occurred at a 
Walmart store in El Paso, Texas, United States. A gunman shot and 
killed 23 people and injured 23 others in his attempt to harm persons 
he perceived as being Hispanic.
    March 16, 2021--In the Atlanta Suburbs 8 people where killed by a 
21-year-old leaving a city in and community in shock and mourning that 
extends to communities and cities throughout the Nation and around 
world.
    March 22, 2021--in Colorado a 21-year-old suspect killed 10 people 
at a Colorado supermarket--which included Boulder police Officer Eric 
Talley, 51, father of 7 children.
    According to the Southern Poverty Law Center (SPLC), in the 
immediate aftermath of Election Day, a wave of hate crimes and lesser 
hate incidents swept the country--1,094 bias incidents occurred in the 
first 34 days following November 8, 2016.
    SPLC reports that anti-immigrant incidents (315) remain the most 
reported, followed by anti-black (221), anti-Muslim (112), and anti-
LGBT (109). Anti-Trump incidents numbered 26 (6 of which were also 
anti-white in nature, with 2 non-Trump related anti-white incidents 
reported).
    The purpose of this hearing is to receive testimony from the 
witnesses on the important role that local and State response to 
domestic terrorism has filled in homeland security.
    Prior to September 11, 2001, the Federal Government had a wide 
range of law enforcement, National security, and benefits management 
agencies that collected information, but jealously guarded this 
information from other agencies.
    The 9/11 Commission Report allowed an in-depth assessment of the 
failures that led to the horrific terrorist attacks against the United 
States that cost the lives of nearly 3,000 people.
    The House Committee on Homeland Security was created to implement 
the recommendations of the 9/11 Commission Report and ensure that 
resources were provided to support the mission of homeland security.
    The most significant task of the committee was guiding the 
establishment of the Department of Homeland Security and making sure 
that it had all that it would need to carry out its mission.
    I, along with other Members who have served on this committee since 
its inception, made a commitment that a terrorist attack of the 
magnitude that occurred on September 11, 2001 would never happen again.
    From 2009 to 2018 there were 427 extremist-related killings in the 
U.S. Of those, 73.3 percent were committed by right-wing extremists, 
23.4 percent by Islamist extremists, and 3.2 percent by left-wing 
extremists.
    In short, 3 out of 4 killings committed by right-wing extremists in 
the U.S. were committed by white supremacists (313 from 2009 to 2018).
    Before the January 6 attack on the U.S. Capitol, State capitols 
across the country were the targets of armed demonstrations, and States 
have grappled with other domestic terrorism incidents to include mass 
killings of minorities in furtherance of white supremacist ideology.
    The long and blood history of white supremacy requires an approach 
that holds individuals accountable for their actions as a means of 
ending the lure of the mob as a tool of violence against targets of 
interest.
    Reports that cite that over a hundred current or former members of 
the military were involved in the riot at the Capitol are shocking to 
some.
    Unfortunately, this aspect of white supremacist violence was 
evident by violence committed by Proud Boys and Boogaloo adherents made 
clear their objectives.
    My efforts to focus the attention of the military on this link was 
evident in an amendment I offered to the NDAA for fiscal year that was 
adopted
    This Jackson Lee Amendment included in the House version of the 
NDAA directed the Secretary of Defense to report to Congress the 
extent, if any, of the threat to national security posed by domestic 
terrorist groups and organizations motivated by a belief system of 
white supremacy, such as the Boogaloo and Proud Boys extremists is 
reflected in the Conference bill.
    The NDAA conference identified that the FBI is under statutory 
obligation, established by Section 5602 of the NDAA fiscal year 2020 
(Public Law 116-92), to complete a report that would better 
characterize the domestic terrorist threat by requiring the FBI and the 
Department of Homeland Security in consultation with the National 
Counterterrorism Center (NCTC), to produce a set of comprehensive 
reports over 5 years.
    The report is to include: A strategic intelligence threat internal 
to the United States; metrics on the number and type of incidents, 
coupled with resulting investigations, arrests, prosecutions, and 
analytic products, copies of the execution of domestic terrorism 
investigations; detailed explanations of how the FBI, DHS, and NCTC 
prioritize the domestic terrorism threats and incident; and 
descriptions regarding the type and regularity of training provided by 
the FBI, DHS, or NCTC to other Federal, State, and local law 
enforcement.
    The conferees noted that the report has not been delivered to the 
appropriate committees and they urged the FBI Director to deliver the 
report without delay.
    The Jackson Lee Amendment to the NDAA fiscal year 2021 sought the 
same information that is required under the NDAA fiscal year 2020 
because of the threat posed by accelerationists and militia extremists 
who comprise a range of violent anti-government actors, movements, and 
organizations, some of which branch out of decades-old ideologies and 
others of which are relatively new has led to violent engagement of law 
enforcement.
    My concern is that in the aftermath of a historic national 
election, the activity of violence influencers like Boogaloo Boys or 
Proud Boys will increase and lead to attacks becoming more frequent.
    In 2018, we saw too many instances of violent extremists searching 
for opportunities to sow violence and disrupt democratic processes.
    Boogaloo and Proud Boys are targeting constitutionally protected 
activity for cooption or to provide cover for attacks.
    I look forward to the testimony of today's witnesses and the 
question and answer opportunity that will follow.
    Thank you. I yield back the remainder of my time.
    The efforts of this committee must shine a light where needed to 
inform ourselves on the things that we must do to better secure the 
Nation and our people from threats posed by domestic terrorist attacks.
    There is no Federal law, that provides a domestic terrorism charge, 
and in light of the attack on the U.S. Capitol there have been renewed 
calls for the creation of such a statute.
    The designation of new laws is not the purview of this committee, 
but that of the Judiciary Committee on which I serve as chair of the 
Subcommittee on Crime, Terrorism, and Homeland Security.
    Currently, at the Federal level, domestic terrorism suspects are 
almost always charged with a wide array of Federal crimes including but 
not limited to hate crimes, guns, explosives, and tax-related charges.
    The list of domestic incidents continues to grow and this committee 
must learn all that we can from today's witnesses who can provide 
insight into the experiences they have in responding to and recoverying 
from terrorist attacks.
    State and local governments are the first to respond to, mediate, 
and recover from domestic terrorism attacks and we thank them and their 
leadership for your service to the Nation.
    I thank the Chairwoman, and I look forward to the testimony of 
today's witnesses.
    Thank you.

    Ms. Slotkin. I don't see Chairman Thompson here, so we will 
proceed, and I don't see Ranking Member Katko. So I will now 
welcome our panel of witnesses. Our first witness is Mr. John 
Godfrey, the acting coordinator for counterterrorism and acting 
special envoy for the Global Coalition to Defeat ISIS of the 
Department of State.
    As the acting coordinator, Mr. Godfrey leads the State 
Department's Bureau of Counterterrorism in developing 
coordinated strategies and approaches to defeat terrorism 
abroad and securing the counterterrorism cooperating of 
international partners. Prior to this role, Acting Coordinator 
Godfrey served as the acting deputy chief of mission for 
Embassy Riyadh.
    Our second witness is Mr. John Cohen, the assistant 
secretary for counterterrorism and threat prevention for the 
Department of Homeland Security. Assistant Secretary Cohen has 
over 3 decades of experience in law enforcement, 
counterintelligence, and homeland security. Assistant Secretary 
Cohen has returned to DHS after having previously served as the 
counterterrorism coordinator and acting under secretary for 
intelligence and analysis. In this capacity, Mr. Cohen led 
DHS's efforts to counter violent extremism and improve 
information sharing.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his statement for 5 minutes. There is a little clock on your 
screen so you can check yourself, and I will start with Acting 
Coordinator Godfrey.

     STATEMENT OF JOHN T. GODFREY, ACTING COORDINATOR FOR 
   COUNTERTERRORISM AND ACTING SPECIAL ENVOY FOR THE GLOBAL 
  COALITION TO DEFEAT ISIS, UNITED STATES DEPARTMENT OF STATE

    Mr. Godfrey. Chairwoman Slotkin, Ranking Member Pfluger, 
and distinguished Members of the subcommittee, thank you for 
this opportunity to appear before you today. I am here today to 
discuss the international dimensions of what we call racially 
or ethnically motivated violent extremism, or RMVE--and we do, 
indeed, love acronyms--and the State Department's on-going 
efforts to address this transnational threat. I would ask that 
my full written statement be entered into the record.
    Just last month, we commemorated the second anniversary of 
the terrible attacks on 2 mosques in Christchurch, New Zealand, 
a horror that was live-streamed and amplified by supporters on 
the internet for all the world to see. This massacre was 
shocking, but unfortunately, it was not unique. Indeed, from 
Christchurch and Pittsburgh to Quebec City and Hanau, we have 
seen an escalation in violence perpetrated by RMVE actors 
globally.
    That is why the Biden-Harris administration has made 
countering RMVE, including White-identity terrorism, a top 
priority. The National Security Council staff is leading a 
comprehensive review of the domestic terrorist landscape, 
including RMVE, with the goal of formulating a strategic 
framework to address this threat. Today, I wish to focus on the 
transnational dimensions of this threat.
    A brief note on terminology. The State Department uses the 
term ``RMVE'' for attacks perpetrated by individuals and groups 
aiming to advance a political agenda to defend against what 
they perceive as threats to their racial or ethnic identity. 
RMVE individuals and groups often violently target members of 
religious, racial, or ethnic minority groups, immigrants, 
LGBTQI+ persons, and governments.
    Today's digital platforms connect RMVE individuals and 
groups to a broad range of conspiracy theories, misinformation 
and disinformation, and violent extremist ideologies, fueling a 
perverse fear of a so-called White genocide and other 
exclusionary narratives and stoking calls to action.
    RMVE actors often communicate through mainstream social 
media platforms, anonymous on-line messaging boards and gaming 
platforms, smaller websites with targeted audiences, and end-
to-end encrypted chat applications, often using coded language 
and symbols.
    Through these avenues, RMVE groups across the ideological 
spectrum, fundraise, communicate, recruit, radicalize, and 
inspire others to violence. They also share practical 
information about how to establish and run training facilities, 
procure fraudulent travel documents, and clandestinely move 
people and materiel. As a result, many RMVE attacks are carried 
out by lone actors who are not affiliated with a single group, 
but who are, instead, inspired by transnational connections, 
often but not only in digital space with RMVE actors abroad.
    Before I outline the State Department's efforts, let me 
first say a brief word about the whole-of-Government approach 
this administration is bringing to this fight. Domestically, 
the FBI and the Department of Homeland Security have the lead 
on protecting the homeland from this threat, and investigating 
cases, including those involving RMVE.
    The State Department's role begins at our borders and 
extends internationally. We work closely with a range of other 
interagency partners in this effort as well. The Secretary 
formally designated the counterterrorism coordinator on 
February 24, 2021, to coordinate the Department's global 
efforts to counter White-identity terrorism, fulfilling a 
requirement in the fiscal year 2021 National Defense 
Authorization Act. To that end, the Department is proactively 
coordinating with diplomatic posts, interagency stakeholders, 
academic entities, and other relevant parties to address these 
threats.
    The State Department also has a number of tools to counter 
RMVE: First, terrorist designations. In April 2020, as the 
Chairwoman mentioned, we designated the Russian Imperial 
Movement and 3 of its leaders as specially-designated global 
terrorists, the first time we have designated RMVE actors using 
State Department authorities.
    Second, preventing terrorist travel by RMVE actors. The 
State Department is actively encouraging partner governments to 
nominate RMVE actors as appropriate into their own National 
watch lists, as well as international law enforcement platforms 
such as INTERPOL.
    Third, diplomatic engagement. The State Department 
proactively engages with foreign partners to bolster 
information sharing on RMVE, and those efforts have recently 
intensified.
    Fourth, using public diplomacy tools, we are leveraging 
international platforms to build the capacity of local 
governments to address the RMVE threat.
    Fifth, engagement with the tech sector, and this involves 
first informing providers of what the threat is, and, second, 
urging them to voluntarily establish, and then rigorously 
enforce, terms of service to allow them to remove on-line 
content that doesn't meet those terms of service.
    Finally, we use our foreign assistance to build partner 
capacity around the world. We are committed to protecting the 
United States and our interests from the increasingly dangerous 
RMVE actors that we face, and we are leading the global 
community in acknowledging, understanding, and effectively 
addressing the transnational dimension of this RMVE threat. We 
very much welcome the interest of the Congress in this issue, 
and I look forward to your questions. Thank you.
    [The prepared statement of Mr. Godfrey follows:]
                 Prepared Statement of John T. Godfrey
                             April 29, 2021
    Chairwoman Slotkin, Ranking Member Pfluger, and distinguished 
Members of the subcommittee, thank you for the invitation to appear 
before you today. I am here today to discuss the international 
dimensions of what we call ``racially or ethnically motivated violent 
extremism,'' or ``REMVE,'' and the State Department's on-going efforts 
to address this persistent and growing transnational threat.
    Just last month, we commemorated the second anniversary of the 
terrible attacks on 2 mosques in Christchurch, New Zealand, where on 
March 15, 2019, a 28-year-old Australian national gunned down 51 
people--a horror that was pre-planned to be live-streamed and amplified 
by supporters on the internet for the world to see. Just before the 
attack, the perpetrator posted on-line a lurid and deranged 74-page 
manifesto. His writing revealed a violent racist and White supremacist 
world-view, expressing rage that immigration flows and demographic 
changes were purportedly causing what he referred to as the 
``replacement of the White race'' around the world.
    This massacre in Christchurch was shocking, but, unfortunately, it 
wasn't unique. The attacker made clear in his screed that he was 
inspired by others who shared similar twisted views and had conducted 
similar attacks, including the individual who massacred nearly 80 
people in Oslo, Norway, in 2011. Indeed, from Christchurch and 
Pittsburgh to Quebec City and Hanau, we have seen an escalation in 
violence perpetrated by REMVE actors around the world. And we have seen 
ample evidence that those individuals are increasingly interconnected, 
often--but not only--on-line.
    This is why the Biden-Harris administration has made it a top 
priority to counter racially or ethnically motivated violent extremism, 
particularly violent White supremacist ideology. To kick off this 
effort, the National Security Council (NSC) staff is leading a 
comprehensive review of the Domestic Violent Extremism landscape, 
including REMVE, with the goal of building a strategic framework to 
address this threat. Assistant Secretary Cohen will discuss the 
domestic dimensions of REMVE; in the time I have before you today, I 
wish to focus on the international and transnational dimensions of this 
threat.
                   understanding the ``remve'' threat
    I'd like to begin with a brief overview of the threat landscape. 
The State Department is using the term REMVE for attacks perpetrated by 
individuals and groups aiming to advance a broader political agenda to 
defend against what they perceive as a threat to their racial or ethnic 
identity. REMVE often encompasses individuals and groups driven by an 
intolerant and ethno-supremacist ideology, with ``White identity 
terrorism'' the largest component of the REMVE landscape. REMVE actors 
engage in violence or the plotting of violence targeting: Immigrants; 
people of other races; Jewish, Muslim, or other ethnic or religious 
groups; LGBTQI+ persons, governments; and other perceived enemies. 
While the U.S. Government uses the term ``REMVE,'' partner governments, 
NGO's, and others use a variety of terms to describe facets of this 
threat, including ``far right terrorism,'' ``extreme right-wing 
terrorism,'' ``White identity terrorism,'' and/or ``White supremacist 
terrorism.''
    Between 2015 and 2020, the U.N. Security Council's Counterterrorism 
Committee tracked a 320 percent increase in ``extreme right-wing 
terrorism'' globally. In recent years, deadly REMVE attacks have 
occurred in Canada, France, Germany, New Zealand, the United Kingdom, 
and the United States, among other countries. In Singapore, authorities 
recently arrested a 16-year-old male who was inspired by the 
Christchurch attacker and planned to attack 2 mosques on the 
anniversary of that horrendous event. This was a rare and isolated 
incident for the country, demonstrating the reach of these pernicious 
ideologies. Violent White supremacist and neo-Nazi groups have also 
become increasingly prominent and vocal in a number of Western 
countries, with a corresponding rise in attacks.
    To effectively tackle the threat posed by REMVE actors, we need to 
understand the motivations and ideologies that fuel the horrific crimes 
they commit. The on-going misuse of today's digital platforms can 
connect REMVE individuals and groups to a broad range of conspiracy 
theories, mis- and disinformation, and violent extremist ideologies, 
many of which may be protected speech under the First Amendment. While 
these informal on-line communities make it difficult to encapsulate one 
overarching REMVE narrative, REMVE ideologies often encompass anti-
Semitism, drawing extensively from Nazi-era propaganda. REMVE actors 
are frequently influenced by works of hate and paranoia that provide an 
ideological framework for their violent actions. These narratives fuel 
a call to action by fomenting a perverse fear of ``White genocide,'' 
and feed into other exclusionary narratives globally.
    It's also important to understand how REMVE individuals and groups 
organize and operate. In some aspects, REMVE actors function similarly 
to Islamist terrorists, such as members of al-Qaeda, ISIS, and 
Hizballah. Like Islamist terrorists, REMVE actors are part of a global 
and interconnected on-line community. They exploit the internet to 
propagandize, radicalize, recruit, and inspire individuals, incite 
violence, raise funds, organize training, plot attacks, and broadcast 
their attacks world-wide. But in other important respects, REMVE actors 
tend to operate differently. Unlike ISIS or al-Qaeda, REMVE actors 
often have a more diffuse organizational structure. Most do not have 
clear leadership or command-and-control structures to coordinate 
attacks--or clear membership or affiliation. They also often lack a 
physical safe haven or territory they control where they can operate 
with complete impunity.
    While many attacks by individuals and groups are self-funded, REMVE 
actors do raise money from a variety of licit and illicit sources, 
including merchandise and music sales, donations from individuals, 
criminal activity such as narcotics and weapons trafficking and selling 
counterfeit goods, and providing military-style training to other 
extremists. In contrast with Islamist terrorists, who often rely on 
informal financial institutions and networks, REMVE groups often use 
formal financial institutions, such as banks and monetary transmitters, 
to move funds domestically and internationally. Several REMVE groups 
are also known to use crowd-funding platforms and virtual currency to 
solicit donations and effect money transfers.
    The U.S. Government is deeply concerned about the extent of the 
transnational links between REMVE actors world-wide. REMVE actors often 
communicate through mainstream social media platforms, anonymous on-
line message boards, on-line gaming platforms, smaller websites with 
targeted audiences, and end-to-end encrypted chat applications, often 
using coded language and symbols. Through these avenues, REMVE groups 
across the ideological spectrum fundraise, communicate, recruit, 
radicalize, and inspire others to violence. They also share practical 
information about how to establish and run training facilities, procure 
fraudulent travel documents, fabricate explosives and obtain weapons, 
and clandestinely move people and materiel. As a result, many REMVE 
attacks are carried out by lone actors with no affiliation to a single 
group, who are inspired by a transnational REMVE movement or movements 
with adherents around the globe who connect virtually on-line. Part of 
this phenomenon includes violent White supremacists traveling overseas 
to train and fight with like-minded individuals in foreign conflict 
zones. U.S.-based REMVE actors have also been known to communicate with 
and travel abroad to engage in person with foreign REMVE actors, 
primarily in Europe and in countries such as Australia, Canada, New 
Zealand, and South Africa.
                    countering the ``remve'' threat
    The United States is taking concrete and specific actions to 
counter the complex and evolving REMVE threat world-wide. Before I 
outline the State Department's efforts, let me first say a word about 
the whole-of-Government approach the administration is bringing to this 
fight. Domestically, the FBI and the Department of Homeland Security 
have the lead in protecting the homeland from this threat and 
investigating cases of DVE, including those involving REMVE. In turn, 
the State Department's role begins at our borders and extends 
internationally. We work closely with interagency partners, including 
the FBI, DHS, the Department of Justice, the Department of Treasury, 
U.S. Agency for International Development, and the U.S. intelligence 
community, and use tools similar to those we have effectively used 
against terrorist threats, such as those posed by ISIS and al-Qaeda.
    To bring all our counterterrorism tools to the fight against REMVE, 
the Secretary formally designated the CT Coordinator on February 24, 
2021 to coordinate the Department's global efforts to counter ``White 
identity terrorism,'' fulfilling a requirement in the fiscal year 2021 
National Defense Authorization Act (NDAA). To that end, the State 
Department is proactively coordinating with our diplomatic posts, 
interagency partners, academic entities, and other relevant 
stakeholders to better understand and address ``White identity 
terrorism'' and the broader REMVE threat. We are also collaborating 
with interagency partners to develop a Department strategy to counter 
REMVE abroad, and we have contracted a Federally-Funded Research and 
Development Center (FFRDC) to conduct an independent study to map 
global connections between REMVE actors, in line with the NDAA.
Countering Terrorist Financing and Travel
    The State Department has a broad range of tools to counter REMVE. 
First, the State Department utilizes our counterterrorism-related 
designation authorities to counter the REMVE threat. In April 2020, we 
designated the Russian Imperial Movement (RIM), a group that provides 
paramilitary-style training to neo-Nazis and White supremacists, and 3 
of its leaders as specially-designated global terrorists (SDGTs). In 
August 2016, 2 Swedish men traveled to St. Petersburg and underwent 11 
days of paramilitary-style training provided by RIM. A few months 
later, these men and another individual conducted a series of terrorist 
attacks in Gothenburg, Sweden. Designating RIM was an unprecedented 
step--it was the first time the United States has designated a foreign 
White supremacist organization as an SDGT. This action was enabled by 
the September 2019 amendments to Executive Order 13224, expanding 
State's ability to designate leaders of terrorist groups or those that 
participate in terrorist training.
    We will not hesitate to continue using our counterterrorism-related 
designation authorities against all terrorist and violent extremist 
groups, regardless of ideology, as appropriate. The State Department 
actively assesses REMVE groups and/or individuals abroad, including for 
potential designation under our authorities. An important limitation is 
the availability of sufficient credible information that meets 
standards for those designations. Nonetheless, we will continue to 
actively review all credible sources of information to assess whether 
foreign REMVE groups and/or individuals meet the criteria for 
designation under States' authorities.
    Second, we play a leading role in preventing terrorist travel, 
including by REMVE actors. The State Department is actively encouraging 
partner governments to nominate REMVE actors, as appropriate, into 
their own National watch lists as well as international law enforcement 
platforms, including that of INTERPOL. We also continue to negotiate 
and implement bilateral terrorism screening arrangements with select 
foreign partners, which allows us to exchange watch list identities 
with those partners. These efforts augment both U.S. and foreign 
partners' border screening systems. Continuing an effort that dates to 
9/11, the State Department is also taking steps to bolster the 
biometric and traveler targeting border security capabilities of key 
international partners, including in Europe. These initiatives provide 
capacity that enables partner nations to better identify and disrupt 
terrorist travel, including that of REMVE actors.
Diplomatic Engagement and Public Diplomacy
    Third, through diplomatic engagement via our embassies abroad, the 
State Department has emphasized to our foreign partners that this issue 
is a priority for the Biden-Harris administration, and encouraged 
increased information sharing on this critical subject. To underscore 
this message, in March, we sent a global demarche to all of our posts 
highlighting this administration's focus on these issues, and seeking 
information from all of our partners on REMVE. We have been hearing 
back from our partners that REMVE is a serious concern and a top 
priority for many of them as well, and they are eager to bolster 
cooperation and collaboration in this area. We are also engaging our 
foreign partners, as well as technology sector and civil society 
partners, through multilateral venues, such as the Council of Europe 
(CoE), the Global Counterterrorism Forum (GCTF), the industry-led 
Global Internet Forum to Counter Terrorism (GIFCT), the Organization 
for Security and Cooperation in Europe (OSCE), Hedayah (the CVE Center 
based in Abu Dhabi), and the United Nations (UN), on REMVE. In October 
2020, for example, we partnered with Germany and the United Kingdom to 
convene a virtual event at the United Nations General Assembly to 
improve information sharing between partner nations and explore REMVE 
actors' transnational linkages. On April 21 and earlier today, the 
United States participated in high-level virtual dialogs on REMVE under 
the banner of the GCTF--a gathering of 30 like-minded partners from 
across the globe. We are also co-leading with Germany a new Financial 
Action Task Force (FATF) initiative to counter REMVE financing.
    Fourth, public diplomacy is an effective tool in preventing and 
countering REMVE. We are leveraging existing international platforms, 
such as the Strong Cities Network (SCN) and the City Pair Program, to 
build the capacity of local governments from Australia to Canada to 
address the REMVE threat. In October 2021, the SCN will bring local and 
National government officials from the Czech and Slovak Republics 
together to discuss strategies for preventing and countering REMVE. And 
in December 2021, representatives of the German cities of Halle and 
Rostock will visit Atlanta and Savanna for a REMVE-focused City Pair 
Program, which is a two-way exchange program we created in 2014 to help 
cities address the flow of foreign terrorist fighters to Syria and 
Iraq. We do this in close partnership with DHS's Office of Targeted 
Violence and Terrorism Prevention (TVTP). Through the State 
Department's International Visitor Leadership Program (IVLP), we have 
also introduced international government and law enforcement officials 
to strategies used by the U.S. Government and private sector to prevent 
attacks on public gathering places and other soft targets, such as 
houses of worship, which can be targeted by REMVE actors. The State 
Department also funds programs related to democracy, pluralism, human 
rights, and tolerance to prevent and counter recruitment and 
radicalization to violence related to REMVE. For instance, we support 
the participation of French universities in the ``Peer to Peer: 
Countering Hate and Intolerance'' program, which empowers university 
students to develop on-line and off-line messaging campaigns to counter 
REMVE and anti-Semitic narratives in their communities.
    We have also increased awareness among foreign audiences by 
amplifying the testimony of ``formers'' through speaker programs. These 
are individuals who were previously involved in REMVE, have realized 
the error of their ways, and are now uniquely qualified to dissuade 
others from becoming radicalized to violence. In December 2019, just 
ahead of COVID-19, we sent a former neo-Nazi to Austria and Belgium to 
share insights about his radicalization and deradicalization journeys, 
and to discuss his community-based rehabilitation and reintegration 
programs for REMVE actors. Through the first-hand accounts of 
``formers,'' our allies are better understanding the nature of REMVE 
and developing more tailored strategies to confront this threat.
Engagement with the Tech Sector
    Fifth, the State Department engages with the international 
community and tech companies in the vitally important effort to counter 
the use of the internet by REMVE actors for terrorist purposes. The 
reliance of REMVE actors on on-line platforms to radicalize, recruit, 
communicate, and organize to violence makes this line of effort 
particularly consequential. We have shaped and mobilized international 
support on 2 high-level calls for action: The G20 Osaka Leaders' 
Statement on Preventing Exploitation of the Internet for Terrorism and 
Violent Extremism Conducive to Terrorism (VECT) and the G7 Biarritz 
Strategy for an Open, Free, and Secure Digital Transformation. These 
documents reflect and protect important American values, such as 
freedom of speech. We have long held and continue to believe that the 
most effective remedy for objectionable speech isn't censorship; it's 
more engagement. As a result, these documents uphold freedom of 
expression by promoting credible alternative rhetoric rather than 
endorsing approaches that rely on coercing ideologues into silence. In 
addition, Osaka and Biarritz stress the importance of voluntary, 
collaborative efforts with the tech sector over regulation that 
threatens the innovation that has made the internet an engine of 
prosperity, creativity, and connectivity.
    The State Department, in partnership and coordinating with other 
departments and agencies such as the National Counterterrorism Center, 
also has engaged tech companies to voluntarily share information on 
terrorist trends and tactics and encouraged tech companies to consider 
voluntarily removing REMVE-related content when appropriate by 
enforcing their respective terms of service that forbid the use of 
their platforms for terrorist purposes while maintaining full respect 
for the right to freedom of expression. For example, following the 
designation of RIM as an SDGT, Facebook, Instagram, Twitter, and 
Google/YouTube decided to remove RIM accounts and content from their 
platforms. This was an important step, though government designations 
are not required for companies to be able to take action against bad 
actors on their platforms.
Foreign Partners' Capacity Building
    Finally, the State Department is beginning to use our foreign 
assistance funding to build foreign partners' capacity to address the 
REMVE threat. In October 2020, we supported the International Institute 
for Justice and the Rule of Law (IIJ) in launching a new initiative 
focused on how criminal justice practitioners can address REMVE. This 
initiative, which we co-led with the United Kingdom, gathered more than 
40 policy makers and practitioners from 19 countries to develop a good 
practices guide with concrete steps to confront this threat. Influenced 
by the Global Counterterrorism Forum (GCTF) principles, the guide 
includes good practices on the types of counterterrorism tools and 
legislation countries should consider to effectively tackle the REMVE 
threat, and how criminal justice actors should work with non-
Governmental actors, including social media companies and community 
leaders. That guide will be launched later this year and help equip 
criminal justice practitioners tackling REMVE threats around the world.
                               conclusion
    Protecting the United States and our interests against all forms of 
terrorism, including REMVE, remains a top priority for the U.S. 
Government and the State Department. The scale and complexity of REMVE 
threats around the world reflect how the terrorist landscape has 
evolved to become more diverse, challenging, and global, as terrorists 
spread their twisted ideas with unprecedented speed and scope via 
modern technology. As I said before, the State Department's authorities 
are focused on the international dimension of this threat, yet this is 
a problem that involves connections between REMVE actors here at home 
and abroad. We are committed to leading the global community in 
recognizing and effectively addressing the transnational dimension of 
the REMVE threat. We welcome the interest of the Congress in this issue 
and I wish to thank you again for the opportunity to testify before you 
today. I look forward to your questions.

    Ms. Slotkin. Great. Thank you for your testimony.
    I now recognize Assistant Secretary Cohen to summarize his 
statement for 5 minutes.

   STATEMENT OF JOHN COHEN, COUNTERTERRORISM COORDINATOR AND 
ASSISTANT SECRETARY FOR COUNTERTERRORISM AND THREAT PREVENTION, 
         UNITED STATES DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Chairwoman Slotkin, Ranking Member Pfluger, 
Members of the committee, thank you for the opportunity to be 
here with you today to discuss this important issue. I too have 
submitted a written statement for the record, and I ask that it 
be submitted as part of the record.
    In preparing for this hearing, it allowed me some time for 
some self-reflection. As you pointed out, Madam Chairwoman, 
this is my second tour with DHS. This is the third Presidential 
administration that I have served with since the September 11 
attack, and this is part of a 35-plus year career in law 
enforcement and homeland security.
    I echo your and the Ranking Member's comments about the 
importance of this hearing and the topic we are discussing, 
because in those 35-plus years, I have to say, I believe that 
it is the most dynamic, complex, and volatile threat 
environment that this Nation has confronted since September 11.
    While after September 11, the United States built a 
tremendous capability to detect and prevent attacks from 
persons coming to the United States from abroad, persons who 
had been recruited and trained and deployed by foreign 
terrorist organizations, many of those capacities--many of 
those capabilities simply do not address important elements of 
the threat we are facing today.
    So while the U.S. Government remains concerned and very 
focused on preventing attacks by foreign terrorist 
organizations, today, the most significant terrorism threat 
facing the United States involves acts of targeted violence by 
lone offenders and small groups, in particular, those inspired 
by domestic extremist beliefs.
    While the use of violence is not limited to a single 
ideological belief system, among DVEs, racially and ethnically 
motivated violent extremists, White-identity extremists, or 
White supremacist extremists remain the most persistent and 
lethal threat facing the homeland.
    But if we are going to be effective in countering the 
current threat, we really have to, as Representative Pfluger 
pointed out, come to this from a fact-based and common 
understanding of the threat.
    So what do I mean by that? The threat we face today 
primarily comes from within the United States, from individuals 
and small groups who self-connect with an ideological belief 
system, and they use those ideological beliefs to justify the 
use of violence as a way to express their dissatisfaction with 
our Nation, or with their personal situation.
    For many of those who have conducted attacks, or have been 
disrupted and prevented from conducting attacks, their 
connection with these ideological beliefs comes through the 
consumption of racist, violent extremist, terrorism-related 
materials and conspiracy theories that they find on-line 
through social media and other on-line platforms.
    Further complicating the threat environment is that our 
adversaries, whether they be foreign nation-states, 
international extremist thought leaders, or even foreign 
terrorist groups like al-Qaeda in the Islamic State, they 
understand this, and they have devoted themselves toward 
understanding and leveraging the fractures in our society, so 
that they can also disseminate extremist rhetoric, and other 
false narratives in an effort to incite violence and sow 
discord.
    So over the past several years, the United States has 
experienced a number of targeted attacks by angry, disaffected 
individuals motivated by a combination of extremist ideologies 
and/or personal grievances. These attacks have targeted a 
cross-section of our society. People in facilities have been 
targeted because of their faith, their political beliefs, their 
race, their gender, or their ethnicity.
    This is a threat that is increasingly becoming 
international. As my colleague, Coordinator Godfrey pointed 
out, we are increasingly concerned about the sharing of 
resources and extremist rhetoric on-line between those in the 
United States and, those like-minded people abroad. We are also 
concerned about the use of encrypted communication 
technologies, the dark web, cryptocurrencies by individuals who 
have adopted these extremist ideologies so they can further 
that coordination, and do so in a way that avoids detection of 
law enforcement.
    Further complicating and challenging law enforcement and 
counterterrorism officials as we seek to confront this threat 
is that we have to understand the close proximity between 
Constitutionally-protected speech and other Constitutionally-
protected activities, and the threat of violence posed by 
individuals who use that speech, or leverage that speech as a 
way to incite violence.
    As we address the serious and dangerous nature of the 
threat posed by domestic violent extremists, we must be mindful 
and protective of the Constitutional rights afforded all 
Americans. Our job is not to police thought and speech. Our job 
is to prevent acts of violence. This has been a major priority 
for the Department since January 20. We have engaged in a 
number of activities intended to address this threat, and I am 
happy to discuss those further during the questioning portion 
of this.
    So thank you again, Madam Chairwoman. I look forward to 
your questions.
    [The prepared statement of Mr. Cohen follows:]
                    Prepared Statement of John Cohen
                             April 29, 2021
    Chairwoman Slotkin, Ranking Member Pfluger, and distinguished 
Members of the subcommittee.
    Thank you very much for the opportunity to be here with you today. 
I appreciate you holding this important and timely hearing.
    The Department of Homeland Security (DHS or the Department) 
confronts grave challenges, both seen and unseen, on behalf of the 
American people. The challenges endanger our communities and our way of 
life, and include terrorism perpetrated by both foreign and domestic 
actors. Terrorist and targeted violence threats to the United States 
have evolved and become more varied since the attacks on September 11, 
2001. Combatting terrorism and targeted violence is and will remain a 
top priority for DHS.
    Foreign terrorist organizations (FTO) still have the intent to 
attack the United States within and from beyond our borders. In the 
years since September 11, 2001, we have enhanced our ability to 
identify and prevent individuals affiliated with these organizations 
from traveling or entering the United States. We have also enhanced 
security at our airports, ports of entry, and collaboration with our 
foreign partners to ensure that terrorists never reach our borders.
    However, the most significant terrorist threat currently facing our 
Nation comes from lone offenders and small groups of individuals who 
commit acts of violence and are motivated by a broad range of violent 
racial or ethnic biases, political, religious, anti-Government, 
societal, and personal ideological beliefs and grievances--or a 
combination of these factors. In particular, Domestic Violent Extremism 
(DVE) represents the most persistent and lethal terrorism-related 
threat facing the United States today.
    When we discuss DVE, we are talking about individuals or movements 
based and operating primarily within the United States who seek to 
further political or social goals through unlawful acts of force or 
violence, without direction from a foreign terrorist group or other 
foreign power. The mere advocacy of political or social positions, 
political activism, use of strong or offensive rhetoric, or generalized 
embrace of violent tactics does not necessarily constitute violent 
extremism and may be Constitutionally protected. DVEs can fit within 1 
or multiple categories of ideological motivation or grievances and can 
span a broad range of movements.
    DVE is typically fueled by violent extremist rhetoric and other 
grievances, including false narratives and conspiracy theories, often 
spread through social media and other on-line platforms by a broad 
range of domestic actors, and occasionally amplified by foreign threat 
actors, such as foreign nation-states or FTOs. DVEs exploit a variety 
of popular social media platforms, smaller websites with targeted 
audiences, and encrypted chat applications to recruit new adherents, 
plan and rally support for in-person actions, and disseminate materials 
that contribute to radicalization and mobilization to violence.
    DVE lone offenders will continue to pose significant detection and 
disruption challenges because of their ability to mobilize discreetly 
and independently, and access to weapons. The lethality of this threat 
is evidenced by recent attacks across the United States, including 
against Government buildings and personnel and minority groups. 
Combatting this violence requires a whole-of-Government approach. As 
stated in last month's joint report from DHS, the Federal Bureau of 
Investigation (FBI), and the Office of the Director of National 
Intelligence titled, Domestic Violent Extremism Poses Heightened Threat 
in 2021, the intelligence community (IC) assesses that DVEs who are 
motivated by a range of ideologies and galvanized by recent political 
and societal events in the United States pose an elevated threat to the 
United States in 2021. In particular, racially or ethnically motivated 
violent extremists (RMVEs) and militia violent extremists (MVEs) 
present the most lethal DVE threats, with RMVEs most likely to conduct 
mass-casualty attacks against civilians and MVEs typically targeting 
law enforcement and Government personnel and facilities.
    The IC also assesses that the MVE threat increased last year, in 
part due to anger over COVID-19-related restrictions. The IC assessment 
is that this threat will almost certainly continue to be elevated 
throughout 2021 because of contentious sociopolitical factors that 
motivate MVEs to commit violence.
    Additionally, RMVEs who promote the superiority of the White race 
are the DVE actors with the most persistent and concerning 
transnational connections because individuals with similar ideological 
beliefs exist outside of the United States. These RMVEs frequently 
communicate with and seek to influence each other, most often on-line. 
Such connectivity with overseas violent extremists might lead to a 
greater risk of U.S. RMVEs mobilizing to violence, including traveling 
to conflict zones. In many cases, these DVE actors have spent 
inordinate amounts of time on-line, viewing extremist, violent 
materials, engaging with like-minded individuals, and ultimately, in 
many cases, communicating their intent to commit some type of violent 
attack.
    In many cases, these RMVEs are inspired by violent extremist 
narratives or conspiracy theories that are spread on-line by U.S.-based 
ideologues, movements, and other individuals, and occasionally by a 
variety of foreign adversaries. Identifying those involved in 
destructive, violent, and threat-related behavior is a complex 
challenge. For example, DVEs may filter or disguise on-line 
communications with vague innuendo or coded language to protect 
operational security, avoid violating social media platforms' terms of 
service, and appeal to a broader pool of potential recruits. Under the 
guise of First Amendment-protected activity, DVEs can recruit 
supporters, and incite and engage in violence. Further complicating the 
challenge, these groups often migrate to private or closed social media 
platforms and encrypted channels to obfuscate their activity.
    Attacks perpetrated by these actors have targeted a cross-section 
of our society, including groups targeted for their faith, ethnicity, 
sociocultural group or profession, as well as Government facilities and 
officials, law enforcement, and even Members of Congress.
    Addressing this threat is a top priority for DHS and requires a 
multi-dimensional approach. The Department has taken a number of steps 
to expand our focus on this threat, working across the Federal 
Government, with our State and local partners, and with the private-
sector and non-Government entities, and to ensure all available 
resources are devoted to combatting DVE. This undertaking requires 
nothing less than a Department-wide effort, which Secretary Mayorkas 
has initiated.
  <bullet> Within the first 30 days of the Secretary's tenure, he 
        designated me as the senior official, to organize, plan, and 
        oversee the Department's operational coordination and response 
        to all terrorism-related threats, including those from DVEs.
  <bullet> On January 27, 2021, DHS issued a National Terrorism 
        Advisory System (NTAS) Bulletin, highlighting our assessment 
        that domestic violent extremists may be emboldened to act in 
        the wake of the U.S. Capitol breach, and that this threat 
        environment will persist through the near future. The NTAS, 
        which is a public and broadly disseminated product, is a 
        critical tool that DHS will continue to leverage to communicate 
        with the American public and our partners.
  <bullet> For the first time, DHS designated DVE as a National 
        Priority Area within the Department's Homeland Security Grant 
        Program. This means that in fiscal year 2021, State, local, 
        Tribal, and territorial governments will spend at least $77 
        million to prevent, prepare for, protect against, and respond 
        to domestic violent extremism.
    Further, at the direction of Secretary Mayorkas, DHS is redoubling 
its efforts to augment intelligence analysis and information-sharing 
capabilities and determine how we can better access and use publicly-
available information to inform our analysis of violent extremist use 
of social media and other on-line platforms. The Department is also 
conducting a review of our posture to counter terrorist threats and 
targeted violence, and our priority moving forward will include 
expanding our attention and capabilities in the following areas:
  <bullet> Intelligence and information-sharing capabilities, 
        particularly with State, local, Tribal, and territorial 
        partners.
  <bullet> Dissemination of intelligence to the broadest audience, at 
        the lowest classification level possible, while protecting 
        privacy, civil rights, and civil liberties of all.
  <bullet> Increased analytic focus to more comprehensively assess how 
        violent extremist actors and other perpetrators of targeted 
        violence exploit and leverage social media and other on-line 
        platforms, and how those on-line activities are linked to real-
        world violence.
  <bullet> Enhanced capabilities to conduct threat assessments and 
        apply threat management techniques.
  <bullet> Enhanced capacity for our stakeholders to implement risk 
        mitigation measures that address the tactics, techniques, and 
        procedures utilized by domestic violent extremists and other 
        perpetrators of targeted violence, such as active shooter, 
        improvised explosive devices, and vehicle ramming attacks.
    The Department's Office of Intelligence and Analysis has already 
initiated some of these efforts through its focus on analyzing and 
producing products on the trends within the full spectrum of the 
domestic violent extremism threat landscape. Additionally, the 
Cybersecurity and Infrastructure Security Agency continues to provide 
resources that support community security and resilience, as well as 
protective measures that organizations can implement to protect 
facilities and venues.
    We have also increased collaboration with the FBI, the IC, and the 
State Department to more comprehensively understand and assess the 
growing operational collaboration between violent extremists in the 
United States and those operating in Europe and other parts of the 
world. This increased collaboration enhances the watch-listing process, 
screening and vetting protocols, and travel pattern analysis to detect 
and assess travel by known violent extremists.
    Finally, we are engaging with the tech industry, academia, and non-
Governmental organizations to better understand on-line narratives 
associated with terrorism and targeted violence and how they are spread 
across the globe. We are looking to more effectively work with these 
partners; evaluate the emerging narratives, whether they come from an 
individual DVE, a domestic violent extremist movement, a foreign 
intelligence service, or an international terrorist organization; 
assess which of those narratives are most likely to incite or result in 
an act of terrorism or targeted violence; and work with local 
communities to most effectively mitigate any risks. This is where our 
Office for Targeted Violence and Terrorism Prevention plays an 
important role through its provision of technical, financial, and 
educational assistance to establish and expand local prevention 
frameworks across the Nation.
    Thank you again for the opportunity to appear before your 
subcommittee today, and I look forward to continuing to work with you 
and other Members of Congress as we address this threat. I look forward 
to your questions.

    Ms. Slotkin. Great. I thank all the witnesses for their 
testimony. I will remind the subcommittee that we will each 
have 5 minutes to question the panel. When you hit close to 
your 5 minutes you will hear off-stage here [inaudible] 
reminding you to the end of the tunnel.
    I will now recognize myself for some questions. So, Mr. 
Godfrey, as I mentioned in my opening statement, I sent that 
letter to Secretary Blinken. I am sure you had a hand in 
drafting the response, and I appreciate that. I have never, in 
my life, seen a letter sent to a department or agency come back 
before the deadline that we asked for it, so thank you for 
that.
    You know, but the sort-of [inaudible], you know, an 
important limitation on your ability to designate these violent 
RMVEs is the ability of sufficient credible information that 
meets standards for designation. Speak to us a little bit about 
that, because, you know, my experience working in the post-9/11 
era is right after 9/11, you know, while there was a handful of 
people who had been watching a group like al-Qaeda, there was 
really a full-throated effort for years to build up the 
architecture to prevent future terrorist attacks from al-Qaeda.
    We have been incredibly successful, but it was an extreme 
level of effort to get to the visibility on leaders, tactics, 
money, organization, communication that we now enjoy for some 
of these groups. Can you speak more to the information and 
intelligence gaps that the Department has encountered on these 
foreign RMVEs?
    Mr. Godfrey. Thank you, Madam Chair, and I am glad we got 
our homework in on time. That is always good to know.
    Ms. Slotkin. It is impressive.
    Mr. Godfrey. Thank you. I am happy to address your 
question. It is a really important one, and I think there is a 
lot of misunderstanding about how the designations work, and 
so, I am happy to take this opportunity to shed a little light 
on that. They are definitely a critical tool in our effort to 
address RMVE as they have been in our efforts against other 
terrorist threats down through the years.
    Our counterterrorism authorities at the State Department 
can only be applied to foreign persons or organizations or 
those that are primarily--or rather can't be used to designate 
individuals or organizations that are predominantly based in 
the United States or exclusively U.S.-based. There are a couple 
of challenges that we frequently encounter in the RMVE arena, 
that includes a lack of sufficient information about these 
groups or actors.
    Let me just unpack that a little bit. Unlike ISIS or al-
Qaeda, for example, RMVE actors have a much more diffuse 
organizational structure. Most of these so-called organizations 
don't necessarily have a clear leadership or command-and-
control structure, and that includes one that directs and 
coordinates attacks, which can be a critical element in 
assessing whether the activities of an individual or a group 
can be attributed to an organization for designation purposes.
    In order to designate a group, we have to be able to 
demonstrate that it is engaged in terrorist activity, and that 
is defined as having a capacity and an intent to carry out 
terrorist activity. Unlike some of our foreign partners who 
have recently designated RMVE organizations, we are unable to 
designate groups based solely on hateful speech without 
providing an additional link to actual terrorist activity.
    So, the other thing I would flag, and this is something 
that has already been touched on by a number of individuals 
already, is that many of these groups have become quite 
sophisticated in their use of end-to-end encrypted 
communications which poses challenges with respect to gathering 
information about their organizational structures and 
activities.
    I think that in your discussions coming up with the 
intelligence community, I don't, in any way, want to speak for 
them, but I would anticipate that you will hear quite a lot 
about that----
    Ms. Slotkin. Yes.
    Mr. Godfrey [continuing]. That the increased prevalence of 
commercially-available encrypted technology does constitute a 
real challenge in this space. Thank you.
    Ms. Slotkin. Yes, thanks for that. I will be following up 
sending some letters to the intelligence community asking them 
to put a higher priority on some of these foreign RMVEs, so 
that we can close some of those gaps.
    You raised a good point that I want to turn to Mr. Cohen. 
As a Michigander, someone who enjoys, in normal, non-COVID 
times, constantly going back and forth over the Canadian 
border, or over the U.S.-Canadian border, what does it mean 
that Canada has taken this step to designate the Proud Boys and 
The Base as foreign terrorist organizations?
    What specifically can our poor border agents in Windsor and 
Detroit expect is the new requirement, or any changes to what 
we do on the American side given that our closest English-
speaking cousin has designated these groups?
    Mr. Cohen. Thank you, Madam Chairwoman, for the question. 
As you are aware, our Customs and Border Protection personnel 
work very closely with Canada as well as other close allies, 
such as the United Kingdom, New Zealand, and Australia. We have 
extensive information-sharing relationships with them.
    As it relates specifically to your question, if someone is 
driving from Detroit over the bridge to Windsor, it is not the 
Customs and Border Patrol officer that would have the first 
encounter with them. Their first encounter would be with 
Canadian authorities.
    If the Canadian authorities had some reason to believe that 
that individual seeking entry to the country was a member of a 
group that had been designated as a terrorist organization 
under their laws, then, they could be denied entry, they could 
be subject to more extensive scrutiny. If that were to occur, 
that information would be relayed back to U.S. authorities, 
and, potentially, there could be further action.
    Ms. Slotkin. I have already abused the clock. I apologize 
for setting a bad example, but I will come back to you on what 
we are now, or not, putting into our databases to flag for the 
Canadians, if there has been any changes as it relates to 
someone being a Proud Boy or a member of The Base.
    I recognize Mr. Pfluger for 5 minutes.
    Mr. Pfluger. Thank you, Madam Chair, and 5 minutes goes 
very quickly in this discussion.
    I appreciate both witnesses' statements. I have got a 
couple of questions that I will get to. But let me just ask 
very quickly, this is the fringes of our society. I mean, if 
you want to put a percentage point by .00001 percent of our 
society who is in the business of thinking about racially 
motivated violence, which is inexcusable, and has no place in 
this society, is that true? I mean, these are the fringes, 
these lone actors, both Mr. Godfrey and Mr. Cohen, before I get 
to the real meat of my question. I think you may be on mute.
    Mr. Cohen. While the numbers may not be large in 
comparison, we have seen, over a multi-year period, a 
significant number of mass casualty attacks conducted by 
individuals who were inspired to commit that act of violence 
through narratives and extremist narratives that they viewed 
on-line. So while, you know--so I would have to say that the 
level of activity by those--that fit that description is 
significant enough that it is considered one of the primary 
National security threats facing the country.
    Mr. Pfluger. So my question revolves around, you know, the 
use, the wedge, the people that are the state actors. How big 
of a threat is it that folks like China, Iran, Russia, North 
Korea, other state actors are using these people, these 
individuals who are disenfranchised and amplifying their 
message, driving home a message in order to, you know, to try 
to increase their passions to carry out violent attacks? How 
big of a threat is this?
    Mr. Cohen. It is highly significant, because what you 
described is one element of a broader effort by foreign hostile 
powers to undermine credibility of the U.S. Government by 
sowing discord amongst our populous for the purposes of 
destabilizing our country, undermining our relationships with 
our key allies through the use of disinformation and other 
narratives that are intended to exacerbate the problems within 
the United States, so it is part of a broader effort.
    You know, I will tell you, after the recent trial and 
conviction of Derek Chauvin, I was surprised to see reporting 
that there were narratives being spread by groups loosely 
affiliated with al-Qaeda, by foreign, hostile powers, and by 
domestic extremist thought leaders in the United States that 
were mirroring each other. So, there is a level of interplay, 
not necessarily coordination, but these hostile threat actors 
understand what will drive our society apart, and they are 
developing narratives for the purposes of doing that.
    Mr. Pfluger. Mr. Cohen, thank you.
    Mr. Godfrey, can you tell us--talk to us about the 
partnerships that we have around the world, and what we can do 
better in order to get at the heart of these either state or 
non-state actors who would drive that wedge and sow discord in 
our own country.
    Mr. Godfrey. Thank you very much, Congressman. Happy to 
address that question. I think that it is a combination of 
bilateral and multilateral engagement that really is the 
primary avenue through which we would seek to address the sort 
of dynamic that Mr. Cohen just identified.
    Bilaterally, we work with a number of partners on things 
like information sharing to ensure that we are sharing a common 
picture of the threat. That is particularly important with 
partners and allies who frankly may be questioning the 
credibility of the United States as a partner and ally in light 
of the disconcerting and persistent and aggressive kinds of 
disinformation campaigns that Assistant Secretary Cohen 
referred to.
    But it is also a very practical avenue through which we 
pass information that can help inform efforts to counter these 
sorts of narratives, but also, the actions of individuals who 
are seeking to carry out attacks and other sorts of things of 
that nature.
    Multilaterally, I think this is a really important line of 
effort for us as well. It is helping create a common quorum of 
concern around this issue set that is really the--one of the 
big goals of that sort of engagement. There has been quite a 
lot of development recently on this front, as you can imagine. 
A number of our European partners and others, including Canada, 
New Zealand, Australia, are very focused on this threat, in 
part, because of some of them have experienced RMVE attacks 
themselves in recent years.
    So just in the last week, we had the launch of 2 new 
initiatives, 1 under the auspices of the Global 
Counterterrorism Forum, that is a constellation of 30 like-
minded countries that focus on elaborating best practices for 
addressing terrorist threats.
    We are moving out quite rapidly on a set of guidelines that 
would provide some best practices for national governments to 
look at when they are elaborating their own protocols for 
addressing this. We have also got a line of effort under the 
OSCE that is on-going, or just launching rather, that I think 
reflects the level of concern, particularly in Europe.
    Then, finally, I would just note a somewhat more obscure 
but frankly really important multilateral platform that we are 
working with, and that is the International Institute for 
Justice, which is in Valletta, Malta. It is focused on 
developing programs and protocols to train partners from around 
the world. These are investigators, prosecutors, and judges who 
focus in the judicial realm on terrorism-related cases.
    We have recently launched a RMVE-specific line of effort to 
help equip those practitioners with an understanding of, and 
tools that they will need in looking at RMVE terrorist actors 
when they enter courtrooms.
    Ms. Slotkin. And----
    Mr. Pfluger. Madam Chair, may I have 30 seconds to respond?
    Ms. Slotkin. Very quickly, because I gave you the 30 that I 
took. Go ahead.
    Mr. Pfluger. Thank you all for the efforts multilaterally 
to make sure that we protect our way of life. It is not just 
ours as a beacon of freedom. These are other countries who have 
followed the United States' lead on this. I would like to 
follow up, whether it is a Classified briefing or not, to look 
at the actual numbers of how many people in our society are 
being affected by this, and are being amplified by this, so 
that we can have a fact-based discussion and make a decision on 
whether or not it is the fringes of society.
    With that, I yield back. Thanks for the extra time.
    Ms. Slotkin. Thanks. I think it will be interesting in that 
further study to demonstrate that while lone-wolf attacks are, 
by far, the example of RMVE attacks in the United States, so, 
too, are things like al-Qaeda attacks and ISIS-affiliated 
attacks.
    I would want to confirm this, but I believe between the 
attacks on synagogues and other places we have had in the 
couple years, dozens more Americans have been killed by RMVE 
attacks than al-Qaeda-associated attacks. But, Mr. Cohen, you 
will correct me at another time if I am wrong on that.
    I now yield to Representative Langevin.
    Mr. Langevin. Thank you, Madam Chair.
    I want to thank our witnesses for your testimony today.
    Mr. Godfrey, the mission of the State Department's Global 
Engagement Center is to counter foreign state and non-state 
propaganda in disinformation efforts. Given their efforts to 
understand how narratives and counter-narratives work in 
societies, and to work with the tech sector to develop tools 
and methods to fight false narratives, what is the role of the 
GEC, the Global Engagement Center, in State Department efforts 
against racially and ethnically motivated violent extremist 
groups?
    Mr. Cohen. Thank you, Congressman. You are right that the 
Global Engagement Center has, exactly as you said, the mandates 
to both track and also counter state and non-state 
disinformation efforts. That is something that initially came 
out of, as you know, the focus on Islamist terrorists, al-
Qaeda, ISIS, and the like. But certainly, it encompasses, as 
all of our counterterrorism tools here at the Department of 
State do, all brands, or types of terrorism, so those tools are 
ideologically neutral and they get applied in that way.
    I think one of the things that is vitally important that 
both the GEC and the Bureau of Counterterrorism do, often in 
tandem, is to engage the tech sector directly on the nature of 
these threats, and we do that for a couple of purposes. One is 
to ensure, particularly for smaller platform providers that may 
lack the resources of some of the larger tech companies that 
have big Government services offices, to ensure awareness of 
what the threat is, what it looks like, and the specific ways 
in which some of these actors are exploiting platforms for 
malign purposes.
    The second part, as I alluded to earlier in my statement, 
is to encourage those companies to elaborate, and then 
rigorously enforce terms of service. So to make them 
responsible, frankly, or to assume voluntarily the 
responsibility for ensuring that their platforms aren't 
exploited by these actors.
    Mr. Langevin. Thank you. Mr. Cohen, you have mentioned that 
the Department of Homeland Security has increased collaboration 
with partner organizations to more comprehensively understand 
the collaboration between violent extremists in the United 
States and their counterparts abroad. So, what are the 
operational implications of determining that a domestic violent 
extremist group or individual has interacted with a foreign 
RMVE group? Does this change depending on whether or not the 
foreign group has a terrorist designation?
    Mr. Cohen. Absolutely, Congressman. Thank you for that 
question. One area where it could impact Departmental operation 
is the more knowledge that we acquire from the intelligence 
community through our communications with foreign law 
enforcement and border control authorities, more information 
that we learn about the travel patterns of extremists abroad 
operating abroad, the more we can learn about where their 
training facilities are located. We can apply that information 
to the travel pattern analysis and screening and vetting 
protocols that we have used for years to protect against 
foreign terrorists from entering the United States. So that is 
one area.
    Secondarily, if there are groups that are designated as 
terrorist organizations abroad, and we can identify individuals 
in this country who are engaged in activities to support those 
groups or collaborate with those groups, that broadens the 
types of investigative and watch listing authority--steps that 
we can take.
    Mr. Langevin. What kind of information-sharing activities 
occur, though, between U.S. agencies and their international 
partners in these situations?
    Mr. Cohen. Well, there is an increasing conversation, and 
to Chairwoman Slotkin's earlier question about Canadian 
authorities, we share some limited watch listing information 
regarding foreign terrorists, or people under investigation for 
terrorism-related charges with Canadian authorities. We receive 
information from Canadian authorities about individuals who may 
be associated with extremist organizations abroad who enter 
Canada, and may be entering Canada for the purposes of trying 
to enter the United States much.
    There have been examples where individuals who entered 
Canada who were in--where there was information that they were 
associated with violent extremist organizations, they sought to 
enter the United States and they were restricted from entering 
the United States because of that information sharing.
    Mr. Langevin. OK. Very good. My time is expired. Thank you 
for your answers, and I yield back.
    Ms. Slotkin. Thank you.
    I recognize Mr. Meijer.
    Mr. Meijer. Thank you, Madam Chair and Ranking Member, and 
to our distinguished guests who are here today. I know I have 
had a chance to speak with Mr. Cohen and just appreciate these 
continuing and kind-of following discussions.
    I want to try to bridge a little bit of a gap between, you 
know, some of the incidents we have seen in the United States, 
which definitely have--there was the Tree of Life Synagogue 
attack--which have had a, you know, RMVE motivation, but aren't 
connected to kind of broader groups, and then the discussion of 
the broader, you know, potentially FTO designations or 
specially designated--or special designations we are looking at 
through State Department channels.
    Is the broader concern that the pool of dissatisfaction, 
the discontents, the socially alienated within the United 
States, that that is sort-of a swamp, a fertile breeding ground 
for the international entities to try to take advantage of in 
order to establish more of a beachhead, or is the concern more 
that those international groups could be resources for 
individuals who are motivated within the United States but 
aren't yet part of a group? I guess, can you kind-of break out, 
how are you viewing that linkage and that ultimate threat?
    Mr. Cohen. So it is a little bit of both. You know, over 
the past several years, we have seen a number of attacks in the 
United States that were conducted by individuals, and we can 
draw direct correlation between their attack and extremist 
narratives that were promoted by individuals abroad.
    Coordinator Godfrey referenced the Christchurch attack. We 
know that that attack, or in addition to live-streaming his 
attack also posted a document relating to his belief systems 
on-line. We know that that document was viewed by individuals 
in the United States who subsequently used the narrative in 
that to justify their conducting attacks within the United 
States.
    So that is one area we are very concerned about, the 
sharing of ideas, the dissemination of extremist rhetoric and 
materials, the posting of live-streaming videos of acts of 
violence. That all is--we have found acts of violence in this 
country that were informed by the attacker consuming that 
material on-line.
    But as you also pointed out, there are increasing concerns 
within the Department of Homeland Security that we are seeing 
groups of individuals who hold extremist beliefs, not only just 
communicating with like-minded people abroad, but traveling to 
meet with people abroad, perhaps working together to acquire 
resources through crowdsourcing or fundraising may engage in 
the sharing of strategies.
    We were tracking some on-line narratives during a recent 
period where we were seeing postings by individuals abroad who 
are seeking to travel to the United States to join planned 
gatherings and protests by extremist organizations.
    So, it is a little bit of both. We are concerned about how 
that can feed the threat environment domestically, the rhetoric 
that is being posted on-line intentionally; and then, 
secondarily, we are concerned about individuals in this 
country, or groups in this country, collaborating operationally 
with individuals abroad.
    Mr. Meijer. Yes. Obviously, the strategy for mitigating, 
you know, the individual versus the strategy for combating the 
group is going to be very different. I know when we spoke it 
was--and this is a conversation I have had with our local law 
enforcement as well. In Michigan, you know, we were--our law 
enforcement was clued in to the attempted kidnapping plot 
against the Governor through one of the participants who grew 
uneasy at the prospect of some of the targeting of law 
enforcement that was occurring, and so then became a 
confidential informant and helped bring--expose that plot and 
ensure that it was prevented from occurring.
    So how--I guess, we are kind-of drilling from that that 
international, almost terrorist mastermind, you know, organized 
notion to all the way down to that individual preemption and 
how do we identify somebody who may be susceptible? As we have 
seen, and then I think we have talked about this within some of 
our Islamic communities as well, that idea of trying to have 
some intervention before somebody tilts to the point where they 
may be susceptible to the rhetoric, but how do we get someone 
off that edge before they go full bore down a violent path. Can 
you also speak to that more local level engagement, 
interaction?
    Mr. Cohen. Yes.
    Ms. Slotkin. Very briefly. Very briefly, please.
    Mr. Cohen. Absolutely, Congressman. A big part of our 
strategy focuses on how we complement the work of a JTTF, for 
example, to build community-based violence prevention programs. 
There are times when someone may come to the attention of law 
enforcement. They don't meet the threshold required for a 
counterterrorism investigation, but the concern is that person 
poses a high risk of violence.
    We are working with local communities around the country to 
develop programs and approaches that focus on reducing the risk 
posed by those individuals who are exhibiting those warning 
signs.
    Mr. Meijer. Madam Chair, I yield back.
    Ms. Slotkin. Thank you. I would just note to Representative 
Meijer, you know, certainly part of my interest in looking at 
these RMVE groups abroad is that should they be designated as 
foreign terrorist organizations, it opens up a potential charge 
of material support to terrorism here in the United States for 
those individuals who are supporting those groups. We have that 
charge for groups like ISIS and al-Qaeda and many, many others, 
and I just, you know, think we should put the same RMVE groups 
through that same process to see what happens, to see if they 
make threshold on those.
    I recognize Ms. Jackson Lee for 5 minutes. I think you are 
still on mute, ma'am. There we go.
    Ms. Jackson Lee. I am unmuted now. Thank you so very much.
    Let me--first, good morning. Thank you for this hearing, to 
the Chairwoman and the Ranking Member, and to the witnesses 
that are here this morning. Racially and ethnically motivated 
violent extremism, the RMVE groups, I think that the United 
States has lagged behind, and I am grateful for the 2 
witnesses.
    Madam Chair, I am grateful for a response of a letter 
before the deadline. I think we are moving in the right 
direction. But the Government, over the years, has seemingly 
lagged in addressing the transnational threat from RMVE actors, 
especially when it comes to designating RMVE organizations and 
individuals with international ties as foreign terrorist 
organizations, or specially-designated global terrorists.
    I would venture to say, 3 years ago, most Americans were 
not aware of the Oath Takers, the Proud Boys, the Boogaloo 
Bois. Those of us on Homeland Security obviously were engaging 
with those names, but when you would speak in public, most 
people would have a very glazed look, but they have been here 
and they are circulating.
    Last evening, the President, rightly so, got a group of 
bipartisan Members inside the Chamber to get a standing ovation 
to law enforcement, to the police officers, to individuals who 
put their life on the line for us. On January 6, we saw the 
extended organizations--I think there are other layers of 
such--literally take the American flag and beat the symbol of 
law enforcement at the citadel of democracy near to their 
death. We obviously lost officers in the midst of this battle.
    So, I want to raise these questions about thought and about 
the idea that as the investigation proceeds, there is the 
question of the elements of law enforcement that might have 
been engaged, the elements of the military that might be 
engaged. I would be interested in your assessment of the size 
of that, how we should respond to that, whether there is an 
international connection to that.
    I would also indicate that--the second part of my question 
is, we are beginning to heal the Nation, heal the Nation with 
legislation. I know you have heard the name George Floyd 
Justice in Policing Act, which many of our Members have 
supported, and legislation to repair the history of slavery in 
this country, H.R. 40.
    I wonder if the work of Congress, because we are opinion-
setters, we are looked to as leaders, contribute to the 
formulation or the extensiveness of the growth. When I say 
Congress, what I am saying is, the body politic. Are these 
groups responding directly to their sense of the political 
arena, and they are not in the arena, they are on the outside 
of the arena, and how that continues to grow them? So, I would 
like to start with Mr. Cohen and then Mr. Godfrey. Mr. Cohen.
    Mr. Cohen. So, Congresswoman, it is nice to see you again, 
and thank you for the question.
    On your first question about your concerns about military 
and law enforcement personnel, as you know, Congresswoman, I 
was a police officer for a number of years in California. I 
worked closely under Mayor Lee Brown in Houston to work on 
issues pertaining to policing. It is a career that I am very 
proud--a profession I am very proud to have been a part of.
    I share your concern. Police officers, members of the 
military are susceptible to being influenced by on-line 
conspiracy theories and narratives like anybody else. It is 
important--and I know I have spoken with a number of police 
chiefs, and one of the issues that we are focused on within the 
Department and the Federal Government broadly is to ensure that 
we have an understanding of whether those narratives are 
influencing not only the beliefs, but the behavior of the men 
and women who either serve in the military or in law 
enforcement.
    In conversations I have had with our civil liberties and 
civil rights officer at the Department, you know, we are not 
just there to enforce the law. We are there to enforce the 
Constitution as well, protect the Constitution. As law 
enforcement and security officials, we have a responsibility to 
ensure that we can do that credibly.
    To your other question, I have to say, it was very 
poignant. As you know, I was one of the individuals in the 
Obama administration that helped design the Countering Violent 
Extremism program. I have to tell you, as I look back it, we 
had--there were some flaws in our assumptions. I think we 
underestimated the amount of distrust that existed between some 
communities of color, immigrant communities, and in particular, 
the Arab-American and Muslim communities in the United States, 
and we underestimated how that distrust was going to impact our 
ability to address this problem.
    So a big part of our effort today is working to regain that 
trust, and we are doing that at a time where, quite frankly, it 
is challenging. The debate on criminal justice reform that is 
going on across the country, which is a needed debate, and a 
needed discussion, you know, comes at a time where we are 
dealing with an angry and polarized public, and it comes at a 
time where we are dealing with significant instances of mass 
casualty attacks by people who are being influenced by 
narratives, and we are dealing with it at a time when our 
foreign adversaries, in particular, are using the protests and 
the debate over racial justice to trash our society.
    Ms. Slotkin. We will have to leave it there. Thank you.
    The Chair recognizes Congressman Guest.
    Mr. Guest. Thank you, Madam Chair.
    Gentlemen, I want to thank each of you-all for spending 
some time with us today to talk about this very important 
issue.
    Mr. Godfrey, I want to talk to you very briefly. You talk 
in your report--and I think that this may have been clear, has 
been made clear throughout this hearing--that this is not just 
an issue that the United States is dealing with, that this is 
actually an international issue. You talk about attacks that 
have occurred in Canada, France, Germany, New Zealand. You 
referenced in your report a recent arrest in Singapore. You 
talk about the fact that these actors are part of a globally, 
interconnected on-line community and that they use that as a 
way in which to fundraise, to organize, to plot attacks.
    If you will, you talk a little bit about the organizational 
structure. I would just ask if you might expand on that. Talk 
about the organizational structures for the RMVEs and how they 
contrast with other terrorist organizations such as ISIS and 
al-Qaeda?
    Mr. Godfrey. I am so sorry. Are you hearing distortion on 
that end?
    Mr. Guest. No, sir. I hear you clearly.
    Mr. Godfrey. OK. Super. I am so sorry. I just got some 
feedback here, but I will drive on.
    So there are some, I think, ways in which RMVE actors or 
groups compare organizationally to other terrorist threats that 
we have been dealing with, including groups like ISIS and al-
Qaeda. You, Congressman, very artfully mentioned a number of 
those that is principally using on-line fora to radicalize, 
recruit, fundraise, and to, some extent, organize.
    I think one of the principle differences is that the RMVE 
groups tend to be much less hierarchical, both in terms of 
having an identified leader, but also, individuals who then are 
responsible for organizing and conducting operations.
    There is a lot of focus in RMVE groups on rhetoric and here 
I would circle back to one of the previous questions and say 
that a lot of what we see in terms of the interplay between 
these groups is inspirational versus organizational. I don't 
want to underestimate the degree to which some of these actors 
are looking to collaborate on things like how to organize 
training camps or even move people and material illicitly, but 
a lot of what we see is really focused on the rhetoric and this 
mutually, self-reinforcing echo chamber is one way to look at 
it.
    To that end, they, I think--or to that point, and to the 
question from Congresswoman Jackson Lee, I think that that has 
tended to amplify and reinforce some of that sense of 
alienation and grievance that these groups are able to adroitly 
capitalize on.
    Mr. Guest. Let me--let me just kind-of build on that. You 
also talk, and I think actually in the same part of your 
report, about the funding of these groups, and you say some are 
self-funded. Some raise funds from various--both legal and 
illegal sources. Can you talk a little and expand on that just 
a little bit about what you are seeing as the different funding 
sources for the groups that we are talking about today?
    Mr. Godfrey. Absolutely, Congressman.
    I think RMVE actors do raise money from a variety of 
sources; including merchandise and music sales; donations from 
individuals; criminal activity, such as narcotic and weapons 
trafficking; selling counterfeit goods turns out to be 
something they do quite a lot of as well.
    Then, finally, providing military-style training to other 
extremists. All of those constitute revenue streams for some of 
these groups. As with any sort of range of actors, they are not 
homogenous. There is some variation as to who kind-of focuses 
more on what within that realm.
    I think one other important thing that I would emphasize is 
that by contrast with groups like al-Qaeda and ISIS, which 
often rely on informal financial institutions and networks, 
RMVE groups often use financial institutions, formal ones, such 
as banks and monetary transmitters to move funds both 
domestically and internationally. Several of these groups, 
these RMVE groups, are also known to use crowdfunding platforms 
and virtual currency to both solicit donations, but also to 
effect transfers of funds.
    Mr. Guest. Thank you.
    Madam Chairman, I believe my time is up.
    At this time I will yield back.
    Ms. Slotkin. OK. We could have given you a few extra 
seconds there, but got it and we will probably move to a second 
round here in a second.
    But in the mean time, I recognize Mr. Malinowski from New 
Jersey.
    Mr. Malinowski. Thank you, Madam Chair. Thanks to the 
witnesses. I think this is an incredibly interesting discussion 
and an important issue.
    I very strongly agree with you. It is vital to call things 
by their name. I think it is really interesting, by the way, to 
highlight that these people, these fringe extremists in our 
country who see themselves as nationalists, are actually 
internationalists, who see themselves as kind-of extreme, 
America-first patriots, are actually, in many cases, receiving 
funding and support from abroad, and that is important to 
expose.
    I think the word ``terrorism'' is an appropriate one to use 
in this context. It is a very powerful word in our effort to 
discredit these people and what they do and the threat that 
they pose. But where I--where things get much more complicated, 
of course, is whether the legal designation of terrorists or 
terrorist group is appropriate. It would certainly be useful. 
It is an incredibly powerful thing to designate an organization 
as an FTO. It enables, it gives us extraordinary powers to deal 
not just with acts of terrorism after they have been committed, 
but, as Chairwoman Slotkin mentioned, to criminalize material 
support, really, to criminalize membership or association with 
a group.
    But, of course, with great power comes great 
responsibility, and we know that governments have sometimes 
abused the extraordinary powers that these kinds of 
designations give them.
    So as we examine that--and we do need to examine the 
question of whether some of these internationally-active groups 
should be designated--I wanted to ask the witnesses about other 
potential tools in the tool kit.
    So, for example, we have wide-ranging financial sanctions 
authorities that enable--that we use in the counterterrorism 
context, the human rights context, in all kinds of National 
security-related situations.
    Take a group like, say, the Asov brigades in Ukraine, or 
the Nordic Resistance Movement, just to name 2 groups that are 
of great concern to us. It may be difficult, even if we wanted 
to do it, to officially label them as foreign terrorist 
organizations, because you have to show that they have 
committed acts of terrorism.
    Should we consider, and if so, do we have the authority 
under current law to use financial sanctions authorities, SDN 
listings, against a group that, say, advocates violence openly, 
that advocates race war, that conducts military-style training 
of people who come to them to learn, you know, explosives and 
small arms tactics, none of which may be enough to get them an 
FTO designations, but which are dangerous things? Is that 
something that could be considered? Again, do we have the legal 
authorities?
    For either of you.
    Mr. Godfrey. Congressman, thank you for the thoughtful 
question. I am happy to take an initial stab at this, and I 
expect that Assistant Secretary Cohen may have thoughts as 
well.
    I think you have hit on a really important distinction, and 
that is that between foreign terrorist organization 
designations and those of specially designated global 
terrorists. Those are different authorities. We have really had 
a really important development with respect to the latter, the 
so-called SDGT authorities. In late 2019, when those 
authorities were broadened under E.O. 13224 to allow us to 
designate individuals who were either determined to be leaders 
of organizations or who directed and conducted training for 
individuals that were parts of those organization, and that, in 
fact, those 2 prongs were the way that we were able to do the 
designation of the Russian Imperil Movement in April 2020.
    We are very proactively looking at using those authorities 
against other RMVE actors. We are close in a couple of cases. I 
don't want to go into too much in this forum about the details, 
but those challenges I highlighted generically at the top with 
respect to using the designations' authorities are relevant 
here, and that is that we often have part of the picture of a 
group and its structure and the activities of some of its 
individuals, but making sure that we have the picture that 
meets the legal sufficiency standards can be quite difficult, 
given the need to have, in some cases, very specific 
information.
    Ms. Slotkin. OK. I know that Mr. Malinowski's time is up, 
and we will enter a second round of questions here and I will 
keep people to time so that we can get through the second round 
and maybe we can follow up.
    I will recognize myself.
    Mr. Cohen, just to finish up the question I had at the 
beginning about Canada, so I understand that, you know, 
Canada--if an individual, right, as someone who represents many 
people who subscribe and consider themselves Proud Boys, for 
instance, that is a popular thing, a popular group in Michigan. 
If they were to travel across the bridge or tunnel to go to 
Windsor, Canada, I hear you that it would be the Canadian 
Customs officials who would look their name up, see if they are 
any watch lists that we share with them, and then make a 
distinction.
    I guess my question is: In terms of the inputting of data 
into those watch lists, has anything changed since Canada 
designated the Proud Boys, and The Base terrorist organizations 
from the American inputting of that data?
    Mr. Cohen. So as it currently stands, inputting data into 
a--into the terrorist watch list would be done by the FBI. It 
would have to have reached a threshold of reasonable suspicion. 
It would be based on investigations, and under some 
circumstances, not on a regular basis, but on some 
circumstances, that information could be made available to 
Canadian authorities proactively.
    So, for example, if I am conducting an investigation into 
an individual, and I become aware that that individual, who is 
being investigated for violent activity, is traveling to 
Canada, Canada then may be provided prior notification so 
investigative activities could take place.
    But from a Government--as a Government perspective, we are 
not trolling through the internet, trying to find people who 
say they are associated with Proud Boys or posting pictures of 
themselves, wearing Proud Boys garb, and providing that 
information to the Canadians. We don't do that anyway. 
Currently, I am told that it would be under--that that 
information that is purely related to a domestic--domestic 
terrorism situation with no nexus to a foreign government is 
not regularly shared.
    Ms. Slotkin. OK. Thank you for that clarification.
    Mr. Godfrey, you know, in this attempt to get more 
intelligence and information and data on these RMVEs abroad, 
can you tell me what the State Department has already done to 
try and increase what we know about these groups? I mean, we 
know embassies across the world were not thinking about al-
Qaeda before 9/11. They were not thinking about ISIS before 
they took over Iraq and Syria, and only with guidance did they 
start to really collect and ask about those things. Can you 
tell me what the State Department has or has not done on this 
issue?
    Mr. Godfrey. Absolutely. Thank you very much, Madam Chair, 
for the question.
    On March 19, we sent a cable to all our diplomatic and 
consular posts, asking them to engage with their host 
governments regarding individuals or groups affiliated with 
RMVE, and particularly those with White identity terrorism 
ties, and to share that information back in formal reporting 
about RMVE networks and activities in their countries.
    To date, we have received responses from 64 posts globally, 
and are expecting additional responses in the weeks ahead. Some 
of those have been a little bit slow by the combination of 
COVID and Ramadan, respectively, but we are making some pretty 
good progress. I don't want to get into specifics about what 
individual posts said, because we do need to protect the 
correspondence with our partner governments, but I do want to 
talk about a couple of trends that were highlighted.
    I can say that in Europe, there was particular, or there 
was the greatest concern that was expressed about the RMVE 
threat, including particularly transnational linkages, and a 
number of European governments noted they were seeing RMVE as a 
growing counterterrorism priority. They assessed that RMVE lone 
actors posed a greater threat than RMVE organizations that were 
publicly known to them. They also noted that in a number of 
countries in Europe, RMVE actors have been specifically 
encouraged to join the military or law enforcement to gain 
tactical experience that could subsequently be used in 
targeting their perceived enemies.
    In terms of funding, there was a common thread of donations 
and solicitations on-line, as well as the sales of apparel, 
music, and literature. Then, I would also note that some of the 
governments that we have talked with are encountering many of 
the same challenges that we have talked about here today, in 
terms of countering the threat and that lack of hierarchical 
structure and a central command, and the use of secure 
communication techniques and platforms has really complicated 
efforts to get after the threat.
    Then, finally, a number of posts noted that their host 
government interlocutors had emphasized that RMVE actors have 
increasingly been moving to smaller, newer, lesser-known, and 
more fully encrypted platforms for communication in an effort 
to escape Government scrutiny.
    Ms. Slotkin. Great. Thank you for that. Very helpful.
    The Chair recognizes Representative Pfluger.
    Mr. Pfluger. Thank you, Madam Chair. I have several 
questions for both witnesses, or either witness.
    Which country non-state actor, state actor, presents the 
biggest threat right now to sowing discord to using these 
actors in the United States to amplify this threat?
    Mr. Cohen. We----
    Mr. Godfrey. Go ahead, John.
    Mr. Cohen. I was going say from the Department of Homeland 
Security perspective, we have been concerned and have monitored 
intelligence community reporting on efforts by Russia and Iran 
in particular.
    Mr. Pfluger. Mr. Godfrey.
    Oh, you are on mute.
    Mr. Godfrey. Apologies.
    We would share that assessment, Congressman.
    Mr. Pfluger. OK. Very good. That is very helpful, and I 
think we want to continue to dig into that.
    My second question is, you know, when it comes to the 
designations, I think this is a fascinating discussion. I 
appreciate Mr. Malinowski's comments on it. You know, what are 
the unintended consequences that you believe when it comes to 
our First Amendment rights, protected rights, that if we do 
move toward designating and explore this, could happen? I mean, 
where are the dangers in this?
    Mr. Godfrey. Congressman, could I ask, are we--when you 
mention designations, are we talking about foreign entities or 
domestic entities, or both, perhaps?
    Mr. Pfluger. Well, for anyone in the United States who is--
who is working with transnational groups, let's say that Iran 
and Russia are able to get to them and then they have the 
organizations through other, you know, European countries, for 
instance, you know, if we move toward designating, what First 
Amendment rights are we, you know, likely to either breach, or 
have as an unintended consequence that makes it, you know, very 
difficult and blurring of the lines?
    Mr. Godfrey. So just speaking for the State Department--and 
I will defer to Assistant Secretary Cohen, perhaps, on the 
domestic piece--I think we would only have--envision a 
situation in which we could use our authorities to designate 
actors abroad. There would have to be a change in the scope of 
our authorities to enable us to contemplate designating 
individuals here at home, and I don't know if Assistant 
Secretary Cohen might have something further he wants to add.
    Mr. Cohen. No. I would just add simply that, Congressman, 
you are hitting on one of the central challenges in dealing 
with this threat which is being able to distinguish between 
protected speech, Constitutionally-protected speech, and 
actions that relate to a specific threat or the threat of 
violence in particular.
    So for us, for the Department, or for law enforcement to 
take action against an individual, we have to have information 
that says, that reflects behavior beyond simply posting racist 
or extremist narratives on-line. We would have to see activity 
that relates that belief system to the potential threat of 
violence.
    Mr. Pfluger. When it comes to--thank you both for that. I 
mean, it is a very difficult and complex issue here. When it 
comes to the work, the coordination, the information sharing, 
intelligence sharing, and how our JTTF is working, what 
authorities do we not have right now that would help us 
identify, detect, and, you know, maybe even intervene at times?
    Mr. Cohen. So that is a very interesting question, 
Congressman, and it goes to the question that Congressman 
Meijer brought up. A number of the circumstances that we have 
experienced over the year have been effective--over the past 
several years, have been effectively disrupted by the 
investigations of a JTTF. But we have also seen situations in 
which an individual has come to the attention of law 
enforcement authorities. They didn't meet the definitional 
thresholds that would warrant a terrorism or counterterrorism 
investigation, but they were still deemed to be a significant 
risk, and, in some cases, have even gone out and committed an 
act of violence.
    So in conjunction to the activities of the JTTF which, 
again, have been highly effective and are an important part of 
dealing with this threat, we have to look at other activities 
that can take place within the community, whether it is the 
conduct of a threat assessment investigation that assesses the 
risk posed by an individual and the employment of different 
types of threat management strategies, whether it be mental 
health support, whether it be working with the family of an 
individual who is exhibiting these behaviors, whether it is 
some other type of law enforcement action or the imposition of 
a flag law that restricts their access to a firearm, there is a 
number of things that we can--that can be done at the local 
level by local authorities and community members that can 
reduce the risk posed by an individual who is exhibiting the 
warning sign.
    So that is a big area of emphasis for us at the Department, 
is that we have adjusted our grant program language and, you 
know, just so that we can support those types of activity at 
the local level.
    Mr. Pfluger. Thank you, Mr. Cohen. Thank you, Mr. Godfrey.
    I yield back.
    Mr. Cohen. I heard the clicker, Madam Chairwoman.
    Ms. Slotkin. Thank you. I am trying. It is the virtual 
world.
    The Chair recognizes Representative Gottheimer.
    Mr. Gottheimer. Thank you, Chairwoman Slotkin, for holding 
this very important and timely hearing.
    As FBI Director Wray recently testified before Congress, 
the top threat we face from domestic violent extremists 
continues to be those we identify as racially or ethnically 
motivated violent extremists, specifically those who advocate 
for the superiority of the White race and who are the primary 
source of ideologically-motivated lethal incidents of violence 
in 2018 and 2019.
    Assistant Secretary Cohen, can you please discuss how U.S.-
based White supremacists and other domestic extremists have 
increasingly adopted the tactics of foreign terrorist 
organizations, and how DHS is working to address the threat?
    Mr. Cohen. Thank you for that question, Congressman.
    So the Department--Secretary Mayorkas instructed my office 
to conduct an operational review of the Department, which is 
on-going, and it seeks to answer a very specific question, 
which is: Based on the current state of the threat, are we 
doing all that we can to address the threat posed by domestic 
violent extremists? Areas that we are focusing on, what more 
can we do to address the use of on-line platforms by foreign 
and domestic threat actors who seek to incite violence? What 
more can we do to increase literacy amongst our young people, 
and individuals who may be potentially influenced by those on-
line narratives?
    What more can we do from the perspective of training? 
Should we be increasing our presence on Joint Terrorism Task 
Forces? How do we better leverage the watch-listing authorities 
and travel pattern analysis capabilities of CBT and TSA in 
order to identify violent extremists who may be preparing to 
travel domestically and internationally?
    Those are some of the issues we are working on, but I look 
forward to briefing the committee more fully at the completion 
of the review.
    Mr. Gottheimer. Thank you.
    I don't know, Mr. Cohen, if I can--if you are able to 
answer this, given the on-going review, but I have been very 
focused on the social media aspect of foreign and domestic 
extremists for radicalization and recruitment. Are there ways 
that you can talk about of how we can more effectively identify 
and prevent the on-line spread of despicable ideologies that we 
know encourage people to engage in lethal violence?
    Mr. Cohen. That is a great question. I share your concerns. 
I think this is one of the driving forces behind the current 
threat. One of the things that we are looking at intently at 
the Department is what more can we do to identify emerging 
narratives as early as possible, and assess the--whether those 
narratives are likely to influence acts of violence, and how 
fast they are spreading across multiple platforms. Once we are 
able to do that, we will be able to anticipate potential target 
areas. We can work with our partners at the Federal level and 
at the State and local level to reduce the risk to those 
targets.
    A good example of that is what we experienced in 
Washington, DC between January 6 and January 20 where, after 
the January 6 incident, we continued to see reflections on-line 
that people were intending to come back on the 20th to engage 
in violence. So we were able to take steps to mitigate the 
risks through more visible security and other measures.
    So, that is the type of work that we are looking at. We are 
working closely with the tech industry and non-Government 
entities to learn from them, to see how they are identifying 
toxicity in residents of narratives on-line.
    Mr. Gottheimer. Thank you so much.
    As you know, the Foreign Terrorist Organization designation 
was first used in 1997. Today, nearly 25 years later, the 
terrorism landscape looks very different. Increasingly, you see 
White supremacist extremists spreading their ideologies and 
distributing guidance and encouragement for independent actors 
outside of established groups or channels.
    Acting Coordinator Godfrey, is our current designation and 
sanctions reviewing sufficient, in your opinion, for combating 
diffuse, leaderless, or amorphous racially and actively 
motivated violent extremists, threats? How do we better target 
these types of actors?
    Mr. Godfrey. Thank you, Congressman.
    I think that, as I have mentioned a couple of times, the 
authorities that we currently have, which are very much focused 
on international actors, have demonstrated themselves down 
through the years to be quite effective. I am not sure it is so 
much a question of the authorities themselves as the 
information that underpins getting to a legal sufficiency 
standard that is required to take those designation actions 
that is the real challenge for us with respect to these groups 
which, as you said, are different from some of the kinds of 
terrorist groups that we have dealt with down through the 
years.
    Mr. Gottheimer. Thank you so much.
    I yield back.
    Ms. Slotkin. Thank you.
    The Chair recognizes Mr. Meijer from Michigan.
    Mr. Meijer. Thank you, Madam Chair.
    You know, I appreciated the discussion and, Madam Chair, we 
have also kind-of discussed on other channels, kind-of, how we 
strike that right balance between protecting civil liberties, 
and making sure that we are adequately preparing our law 
enforcement for the task and, indeed, I think that is the 
overall intent of this subcommittee hearing today as we are 
looking at what those higher-level distinctions would be.
    I guess one request--and then I will go into some more 
remarks--is I know there was a reference to, in one of the 
documents, to a Classified annex, or kind-of more fulsome 
report on this issue.
    Would love to speak, or have an opportunity for the 
committee as a whole to dive a little bit more deeply, because 
I know especially, as we are on the Homeland Security Committee 
but we are tying into international entities as well. So would 
love to get the fuller picture.
    Then, I am well aware, Madam Chair, as well, that you had 
reached out to the DNI's office to try to get some more 
information and have them participate. But, you know, as we are 
looking down and assessing between some of the neo-Nazi 
elements, like Atomwaffen, versus those who don't fall into as 
need a description, understanding that overall threat profile 
on a specific level would be appreciated.
    Now, I guess, getting back to some of our panelists here 
today, we have that distinction or that--I guess, I would love 
to dig a little bit more deeper into the balance of what we 
have seen from propaganda, or misinformation, that has been 
amplified by foreign governments, especially malign foreign 
governments, with an intent toward the recruitment, or the 
populating of that misinformation ecosphere for domestic 
consumption, versus where have foreign governments--I guess 
here is the question: Have we seen foreign governments that 
have been actively using organizations that could potentially 
be designated FTOs? Have we seen foreign governments actively 
using them in order to recruit or bolster membership 
domestically?
    I guess more likely for Mr. Cohen.
    Mr. Cohen. Congressman, thank you for the question.
    That is probably an issue we would have to discuss in a 
closed session, to address it completely.
    Mr. Meijer. I guess just stepping a little bit back, have 
we seen foreign governmental influence been more on supporting 
organizations that may seek to recruit, or on amplifying 
information that gets consumed in a non-organizational setting 
on an individual basis?
    Mr. Cohen. So without touching the first part of your 
question, what we have seen are examples where a foreign 
hostile power will, you know, will watch what is going on in 
this country, and then they will use events. Some topics that 
they have focused on in the past have been--have been issues 
relating to immigration, race--immigrant--I am sorry--issues 
relating to discussions on race and issues discussed--
regarding, you know, terrorism, enforcement of terrorism, you 
know, addressing terrorism threats. They have used issues like 
that to try to sow discord amongst our populace. They know 
these are issues that are passionately being debated, and they 
will use narratives on both sides of the issue for the purposes 
of inflaming the discussion.
    As I mentioned earlier, I was--it was really intriguing to 
me to see common--after the conviction was announced of Derek 
Chauvin in Minneapolis, it was really interesting to see that 
we saw common language being used, for example, focusing on 
whether the jury had been unfairly influenced to make the--to 
come up with the verdict they came up with. We saw that on 
forums known--associated with Russia, forums associated with 
Iran, as well as domestic extremists.
    Mr. Meijer. Thank you, Mr. Cohen. I am just running a 
little low on time. I wanted to get one last question in real 
quick.
    I know we have talked about how an FTO designation may 
bolster law enforcement. Would an FTO designation also bolster 
our ability to combat that international, or that foreign state 
nexus, or that foreign state support for a RMVE 
internationally?
    Mr. Godfrey. That would depend on the individual group and 
the nature of the proxy relationship between a foreign state 
actor and that group, as to the extent to which an FTO 
designation could have an impact. Without going into too much 
in this forum, I would say that there are some instances in 
which that could, in fact, have an impact.
    Mr. Meijer. OK. Thank you, Madam Chair.
    I yield back.
    Ms. Slotkin. No problem. I think absolutely we can 
certainly have a discussion about a Classified session, going 
into some of these details. I would also suggest that any 
Member who is interested ask the Homeland staff to pull the 
Classified kind of production that has gone on the past couple 
of months on these groups, or on whatever issue you are 
interested in. They will pull that. You can sit in a room and 
read it. I do it pretty frequently. While the collection is not 
great, right, I don't want anyone to think that there is 
incredibly detailed information, it is certainly an interesting 
read file to pull.
    So, the Chair recognizes Representative Jackson Lee from 
Texas.
    Ms. Jackson Lee. Thank you, Madam Chair.
    I cannot see the clock, and, so, I really lost out in terms 
of trying to get my questions in. I appreciate Mr. Cohen gave a 
very thorough answer, but forgive me. I just cannot see the 
clock, and it makes it very difficult to get your questions in. 
So I will do my very best. This is a very important topic.
    I have, in my opening statement, about 4 pages of 
terroristic acts, beginning with April 15, 2013, the Boston 
attacks during the Boston Marathon, individuals here in the 
United States. One could argue that there was an international 
issue, but domestic terrorism. Two, the 2 individuals in Dallas 
in 2016, ex-military who shot and killed 5 police officers, and 
an offender in Louisiana that killed 6 police officers in Baton 
Rouge.
    I say that because my last question finished on police 
officer involvement. These individuals were allegedly with 
sovereign nation. We haven't mentioned them. I would like to 
get a comment about that, Mr. Cohen, if I could get it very 
briefly. I want to make sure that I didn't end on the note that 
all of the military and all police officers are involved with 
the Boogaloo Bois and the Proud Boys and the Oath Takers. I 
wanted to suggest that there was a minute group that we needed 
to assess, and I wanted to kind-of get an understanding of how 
Homeland Security was doing that.
    I would be interested, if you want to comment on the 
sovereign nation, if you can do that very briefly so that I can 
raise questions with Mr. Godfrey as well.
    Mr. Cohen.
    Mr. Cohen. Yes, Congressman. Sovereign citizens believe 
that the current Government of the United States is illegal and 
they have no responsibility to obey the laws or defer to 
authority figures, such as local police, and there have been a 
number of instances where they have engaged in lethal 
encounters, killing police officers.
    I agree with you that the overwhelming majority of law 
enforcement officials around this country go out every day to 
protect the Nation. There are a small group that may be 
susceptible to being influenced, and we have a responsibility 
to make sure that we counteract that.
    Ms. Jackson Lee. Right. So what I want to say--so what I 
want to make the point is, you are not excluding or precluding 
your work to ensure that in those ranks, you don't have--I know 
the military is being assessed by the Secretary of Defense, but 
I just want to make sure that you are looking at those groups 
as well, so we weed them out from the larger body. Is that 
correct?
    Mr. Cohen. Yes. We just initiated a major effort across the 
Department to do that.
    Ms. Jackson Lee. Very good. Thank you.
    Let me ask--and I think this question was asked but I just 
want to make sure. Mr. Godfrey, in terms of the numbers of 
those domestic terrorists going internationally to join wars, 
we are familiar with the Ukraine War that some of our 
terrorists from here were going to refine their skills. How 
extensive is that?
    Mr. Godfrey. Thank you very much, Congresswoman. It is nice 
to see you again. I think the last time we crossed past was in 
Riyadh.
    Ms. Jackson Lee. Thank you.
    Mr. Godfrey. To your question, the number--and this will 
echo what Assistant Secretary Cohen mentioned earlier--the 
numbers are not terribly large. The concern we have is that the 
impact of those individuals traveling and acquiring skills in 
war zones is disproportionate, such that when they return, they 
have skill--they typically come back more radicalized than when 
they left would be one point to make, and the other would be 
that they do have hard skills that they are able to, in some 
cases, use in attacking targets domestically.
    One final note. One of the things we are hearing 
increasingly in diplomatic channels that I think would be 
interesting for the Members of the committee to know is 
increased concern from partners abroad about the U.S. racially 
and ethnically motivated violent extremists cohort being an 
exporter of--a net exporter of ideology and pernicious thought. 
There is often the perception that American actors at home, 
RMVE actors, White and terrorist actors, are more influenced by 
foreign actors than the other way around. What we are 
increasingly seeing evidence of is concern about the flow going 
the other way.
    Ms. Jackson Lee. If you could just finish quickly, again, I 
had asked the question earlier in the first round about the 
actions of legislation or comments by Members which I wanted to 
finish the point. I think it is important for us to show our 
ability to debate issues like policing bills, the Commission to 
Study and Develop Reparation Proposals, which may be sounding 
differently in some ears, but it really is important for the 
Congress to be able to show a democratic debate so that it 
doesn't fuel the fires of those who feel that they are on the 
outside, or want to attack elected officials.
    Can someone just take a quick stab at that? The voices that 
come out of Government, does that fuel the fires if we don't do 
it in a civil and engaging manner, showing how democracy really 
works?
    Ms. Slotkin. Very quickly, please.
    Ms. Jackson Lee. Thank you, Madam Chair.
    Mr. Cohen. Absolutely.
    Ms. Jackson Lee. Is that Mr. Cohen.
    Mr. Cohen. That was--yes, yes Congressman. The--the 
people--we have seen attacks in which people have derived 
inspiration or justification for the use of violence based on 
on-line narratives, but also based on the words of public 
officials and individuals who work in the media.
    Ms. Jackson Lee. Well, we will try to do better. I think 
that is very important.
    Thank you, Madam Chair. There is a lot of work that we have 
to do. Thank you.
    Ms. Slotkin. Thank you.
    For our final question, the Chair recognizes Representative 
Malinowski.
    Mr. Malinowski. Thank you, Madam Chair.
    Just, first, a brief note on the unintended consequences 
question that I think all of us, you know, have in the back of 
our minds at least. Material support has been defined very, 
very broadly by some agencies of our Government in the past.
    One experience in work that I have done, you know, we had, 
several years ago, poor Colombians who had been victims of the 
FARC, which had been a designated terrorist group, applying for 
refugee status to come to the United States, but DHS labeled 
them as material supporters of terrorism, because they had been 
forced at gunpoint to provide food to the FARC, and that was 
deemed as material support.
    There have been just cases that defy logic and common 
sense, and yet, the law being what it is, we have had to 
struggle with how this is actually applied in practice, which 
brings me back to kind-of where I left off, the discussion of 
the specially designated global terrorist authority, which 
allows us to apply the financial sanctions, really important in 
cutting off financial flows, and some forms of cooperation by 
American nationals and the activities of these groups.
    Just want to get more clarity about how that works. The 
standard for designating someone a specially designated global 
terrorist, basically they have to provide they have committed a 
terrorist act, or there is a finding that they are--they pose a 
significant risk of committing a terrorist act.
    Is that basically correct, Mr. Godfrey, maybe to you?
    Mr. Godfrey. Thank you, Congressman.
    Right. So the SDGT designation allows the Department to 
designate foreign groups or individuals that have committed, or 
have attempted to commit or pose a significant risk of 
committing, or have participated in training to commit acts of 
terrorism that threaten the security of U.S. nationals, or 
National security, and that includes foreign policy or the 
economy of the United States.
    Mr. Malinowski. OK. So making that a little more specific, 
I mean, imagine a group based in Europe, or overseas, that 
advocates the supremacy of the White race, that advocates the 
replacement of democratically-elected governments with, you 
know, basically, you know, fascism or Nazism, that advocates 
violence in support of that goal, perhaps, even offers small 
arms training, or explosives training, to people who want it, 
who share their ideology. Would that be enough to be able to, 
you know, generically--I am not talking about a specific 
group--to trigger that kind of designation?
    What I am getting at here is whether that authority is 
sufficiently robust. It is more limited in terms of the 
unintended consequences, which is why it is attractive. But is 
the definition sufficient? You know, is the bar set at the 
right point?
    Mr. Godfrey. Congressman, the example, the hypothetical you 
gave, which we are always reluctant to engage in, but I think 
it is an aptly formed one, I think in that instance, the kind 
of group you identified with the activities that you 
identified--and that is the critical part of this--would likely 
meet the standard for designation.
    So, again, the critical nexus for designations is good 
information that demonstrates both capacity and intent on the 
part of a group to engage in terrorist acts. If we meet that 
threshold, we are on solid ground.
    Mr. Malinowski. OK. Well, let's explore that further 
because, again, I am not--some would argue that the examples 
that I rattled off do not necessarily constitute intent to 
commit terrorist acts.
    Slightly different example, there has been reporting 
recently that there have been very large transfers of bitcoin 
to particular Americans, Nick Fuentes, for example, who is 
sort-of a well-known extreme right activist involved in the 
January 6 riots, receiving hundreds of thousands of dollars' 
worth of bitcoin from foreign supporters.
    It is not illegal for a foreigner to provide cash support 
to political causes in the United States, not political 
electoral, but social causes.
    But would that kind of transfer raise any kind of legal 
questions that you guys could pursue under current law related 
to tax reporting, or something outside of the counterterrorism 
realm that would allow us to get at that kind of support for 
these groups in the United States?
    Ms. Slotkin. Briefly, please.
    Mr. Godfrey. Congressman, I think on that sort of an issue, 
those authorities would reside with the Treasury as opposed to 
the State Department.
    If I could just circle back, one point of clarification on 
your hypothetical, the element that you mentioned that 
specifically allows us to bridge to an SGTD potential 
designation was the training going back to the expansion of 
authorities in late 2019.
    Mr. Malinowski. Got it. All righty. Thanks.
    I will yield back. I am out of time.
    Ms. Slotkin. Thank you.
    With that, I thank the witnesses for their valuable 
testimony, and for the Members for their questions.
    I ask unanimous consent that 2 letters be inserted into the 
record. One is the letter I wrote to Secretary Blinken on April 
5 requesting the Department of State, with input from 
interagency partners, consider designating these groups either 
as FTOs or SDGTs. The second is the State Department's response 
dated April 23.
    [The information follows:]
     Letter From Chairwoman Slotkin to Secretary Antony J. Blinken
                                     April 5, 2021.
The Honorable Antony J. Blinken,
Secretary, U.S. Department of State, 2201 C St NW, Washington, DC 
        20520.
    Dear Secretary Blinken: In April of 2020, the State Department 
designated the first-ever white supremacist extremist (WSE) group, the 
Russian Imperial Movement (RIM), and three of its leaders as Specially 
Designated Global Terrorists (SDGT). This was a welcome step to curb 
the global threat from white supremacist extremists, but it's time for 
more to be done. As such, I write to ask that you designate additional 
overseas violent WSE groups in the attached list that meet the 
necessary criteria as Foreign Terrorist Organizations (FTOs). If these 
groups do not meet the more stringent FTO criteria, I ask that you 
designate these groups as SDGTs, as your predecessor did with RIM. Such 
designations will help apply more stress to curtail these violent 
organizations' and their leaders' ability to operate their groups. It 
would also give the U.S. Government more tools to engage and flag the 
Americans who contact, support, train, and join these WSE groups, under 
applicable laws.
    As a former CIA officer who has looked at foreign terrorist 
organizations in the Middle East most of my career, I was struck by the 
threat these white supremacist groups pose, the amount of contact they 
have with extremists in the U.S., the minimal intelligence and 
diplomatic reporting we have on these groups, and the relative lack of 
review taken by the U.S. Government. In the past several years there 
have been numerous incidents of WSE-inspired violence across the globe, 
in places like Germany,\1\ New Zealand,\2\ Ukraine,\3\ and France,\4\ 
in furtherance of white supremacist political ideology. The Department 
of Homeland Security's most recent Threat Assessment recognizes this 
growing problem and its impact on the homeland, noting that ``WSEs have 
engaged in outreach and networking opportunities abroad with like-
minded individuals to expand their violent extremist networks. Such 
outreach might lead to a greater risk of mobilization to violence, 
including traveling to conflict zones.''\5\
---------------------------------------------------------------------------
    \1\ German Halle Gunman Admits Far-Right Synagogue Attack, BBC, 
Oct. 11, 2019, https://www.bbc.com/news/world-europe-50011898.
    \2\ Christchurch Mosque Shootings: Gunman Livestreamed 17 Minutes 
of Shooting Terror, NEW ZEALAND HERALD, Mar. 15, 2019, https://
www.nzherald.co.nz/nz/christchurch-mosque-shootings-gunman-
livestreamed-17-minutes-of-shooting-terror/BLRK6K4XBTOIS7EQCZW24G- 
FAPM/.
    \3\ Tim Lister, The Nexus Between Far-Right Extremists in the 
United States and Ukraine, COMBATING TERRORISM CENTER AT WEST POINT, 
April 2020, https://ctc.usma.edu/the-nexus-between-far-right-
extremists-in-the-united-states-and-ukraine/.
    \4\ Angelique Chrisafis, Police Arrest 84-Year-Old Man Over Gun and 
Arson Attack at French Mosque, THE GUARDIAN, Oct. 28, 2019, https://
www.theguardian.com/world/2019/oct/28/two-injured-in-arson-and-gun-
attack-at-french-mosque.
    \5\ Homeland Threat Assessment, DEPARTMENT OF HOMELAND SECURITY, 
Oct. 2020, https://www.dhs.gov/sites/default/files/publications/
2020_10_06_homeland-threat-assessment.pdf.
---------------------------------------------------------------------------
    As you know, the Department of Justice regularly prosecutes 
American citizens for providing material support to groups like the 
Islamic State or al-Qaeda, who are designated as FTOs. However, if that 
same American citizen collaborates with a violent WSE group based 
overseas and supports their designs for terror, receives training, 
money or resources, or travels to fight alongside them, the Federal 
Government does not currently have access to the same legal tools, 
since these WSE groups are not designated terrorist organizations or 
individuals.
    By my read, there seem to be ample examples of foreign white 
supremacist groups that meet the criteria for the FTO list. For 
example, the 2018 U.S. Counterterrorism Strategy names the Nordic 
Resistance Movement and the National Action Group as Terrorist 
Adversaries in the same section as ISIS, al-Qaeda, Boko Haram, and 
Hizballah.\6\ The Azov Battalion, a well-known militia organization in 
Ukraine, uses the internet to recruit new members and then radicalizes 
them to use violence to pursue its white identity political agenda.\7\ 
A full list of the foreign groups I would ask you to review is 
attached.
---------------------------------------------------------------------------
    \6\ National Strategy for Counterterrorism of the United States of 
America, THE WHITE HOUSE, Oct 2018, https://www.dni.gov/files/NCTC/
documents/news_documents/NSCT.pdf.
    \7\ Simon Shuster and Billy Perrigo, Like, Share, Recruit: How a 
White-Supremacist Militia Uses Facebook to Radicalize and Train New 
Members, TIME MAGAZINE, Jan. 7, 2021, https://time.com/5926750/azov-
far-right-movement-facebook/.
---------------------------------------------------------------------------
    In addition, I would ask your help with a related matter: Canada 
has taken the step of designating The Proud Boys and The Base as 
terrorist groups whose members may now see their financial assets 
seized.\8\ While there is less information on the foreign affiliates of 
these two groups, as a representative of a border State, I ask for your 
help in clarifying what their designation means for U.S. diplomatic 
reporting, intelligence sharing, and law enforcement cooperation 
between the U.S. and Canada, given the complicated legal issues at 
play--particularly before the border re-opens after COVID.
---------------------------------------------------------------------------
    \8\ Ian Austen, Canada Formally Declares Proud Boys a Terrorist 
Group, NEW YORK TIMES, Feb. 3, 2021, https://www.nytimes.com/2021/02/
03/world/canada/canada-proud-boys-terror-group.html.
---------------------------------------------------------------------------
    Thank you for your attention to these matters. I know you are 
concerned about foreign organizations that use violence to further 
their political goals, particularly when they pose a threat to U.S. 
citizens, interests, and allies abroad. I ask that you take a thorough 
look at these WSE groups as Foreign Terrorist Organizations as soon as 
possible. They continue to show in very public ways who they are and 
the lethal steps they will take to achieve their goals in countries 
across the globe.
    Thanks for your attention. I would appreciate even an interim 
response by May 3, 2021.
            Sincerely,
                                            Elissa Slotkin,
                                                       Chairwoman, 
                Subcommittee on Intelligence and Counterterrorism, 
                                    Committee on Homeland Security.
        Suggested List of WSE Groups to Consider for Designation
    Atomwaffen Division Deutschland
    Azov Battalion (foreign affiliates and members)
    Blood & Honour
    Combat 18
    Feuerkrieg Division
    Generation Identity
    Hammerskins (foreign affiliates and members)
    National Action Group, aka System Resistance Network
    Nordic Resistance Movement
    Northern Order
    Order of Nine Angles
    Rise Above Movement (foreign affiliates and members)
    Sonnenkrieg Division
                                 ______
                                 
            Letter From Naz Durakoglu to Chairwoman Slotkin
                                    April 23, 2021.
The Honorable Elissa Slotkin,
Chairwoman, Subcommittee on Intelligence and Counterterrorism, 
        Committee on Homeland Security, House of Representatives, 
        Washington, DC 20515.
    Dear Madam Chairwoman: Thank you for your letter of April 5 about 
the potential designations of violent white supremacist groups under 
the Secretary of State's counterterrorism authorities.
    The Biden-Harris Administration shares your deep concern about the 
threat posed by racially or ethnically motivated violent extremism 
(REMVE), including violent white supremacist groups. The National 
Security Council is currently leading an expedited policy review of 
domestic terrorism, including the nexus to REMVE actors overseas, to 
determine how the government can better share information about this 
threat, support efforts to prevent radicalization to violence, and more 
effectively disrupt REMVE networks at home and abroad.
    You mentioned in your letter a number of REMVE groups overseas that 
could be considered for designation as Foreign Terrorist Organizations 
(FTOs) or Specially Designated Global Terrorists (SDGTs). Thank you for 
sharing this information, and please rest assured that the Department 
is deeply committed to the appropriate use of its counterterrorism-
related designations authorities to limit the ability of foreign groups 
or individuals linked to acts of terrorism to obtain resources and 
support, regardless of their ideologies or motivations. Designation of 
the Russian Imperial Movement (RIM) and members of its leadership as 
Specially Designated Global Terrorists (SDGTs) in April 2020--the first 
time in history the Department has designated a white supremacist 
terrorist group--reflect that commitment. As you know, we actively and 
continuously assess REMVE groups abroad that could be designated as 
FTOs and/or SDGTS and stand ready to use our authorities to do so. An 
important limitation in those efforts is the availability of sufficient 
credible information that meets standards for designation.
    It is clear that our foreign partners share our concern about the 
increased threat posed by REMVE actors and welcome coordination with 
the United States to address it. With respect to your question about 
Canada's recent designations of The Proud Boys and The Base and U.S.-
Canadian diplomatic reporting, intelligence sharing and law enforcement 
cooperation, Canada has been and remains one of our closest 
counterterrorism partners, one with whom we regularly share information 
about potential threats through diplomatic, law enforcement, and 
intelligence channels.
    The State Department is bringing all our counterterrorism tools to 
the fight against REMVE actors--information sharing, preventing and 
countering violent extremism (P/CVE), restricting terrorist travel, 
engaging with technology companies to urge enforcement of terms of 
service for use of online platforms, and building partner capacity to 
protect soft targets like synagogues, mosques, and churches. We will 
also continue to review all sources of information to assess whether 
foreign REMVE groups and/or individuals meet the legal criteria for 
designation under State's authorities.
    On February 24, 2021, the Secretary designated the Coordinator for 
Counterterrorism as the lead for the Department's efforts to counter 
REMVE, including White Identity Terrorism (WIT), as mandated in the 
Fiscal Year 2021 National Defense Authorization Act (NDAA). In response 
to other NDAA provisions, the Department has now funded a WIT social 
networking study by a Federally Funded Research and Development Center 
and is working to expeditiously address other NDAA WIT requirements.
    We hope this information is helpful to you. Please let us know if 
we may be of further assistance.
            Sincerely,
                                             Naz Durakoglu,
         Acting Assistant Secretary, Bureau of Legislative Affairs.

    Ms. Slotkin. The Members of the subcommittee may have 
additional questions for the witnesses, and we ask that you 
respond just as expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days. Hearing no further business, the subcommittee 
stands adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
